<html>
<title> - MEETING THE HOUSING AND SERVICE NEEDS OF SENIORS</title>
<body><pre>[Senate Hearing 109-670]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-670


                          MEETING THE HOUSING
                      AND SERVICE NEEDS OF SENIORS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINATION OF S. 705, TO ESTABLISH THE INTERAGENCY COUNCIL ON MEETING 
                THE HOUSING AND SERVICE NEEDS OF SENIORS

                               __________

                             JUNE 16, 2005

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html


                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

30-792 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

ROBERT F. BENNETT, Utah              PAUL S. SARBANES, Maryland
WAYNE ALLARD, Colorado               CHRISTOPHER J. DODD, Connecticut
MICHAEL B. ENZI, Wyoming             TIM JOHNSON, South Dakota
CHUCK HAGEL, Nebraska                JACK REED, Rhode Island
RICK SANTORUM, Pennsylvania          CHARLES E. SCHUMER, New York
JIM BUNNING, Kentucky                EVAN BAYH, Indiana
MIKE CRAPO, Idaho                    THOMAS R. CARPER, Delaware
JOHN E. SUNUNU, New Hampshire        DEBBIE STABENOW, Michigan
ELIZABETH DOLE, North Carolina       ROBERT MENENDEZ, New Jersey
MEL MARTINEZ, Florida

             Kathleen L. Casey, Staff Director and Counsel
     Steven B. Harris, Democratic Staff Director and Chief Counsel
           Mark A. Calabria, Senior Professional Staff Member
                Tewana Wilkerson, Legislative Assistant
             Jonathan Miller, Democratic Professional Staff
               Jennifer Fogel-Bublick, Democratic Counsel
            Sarah Garrett, Democratic Legislative Assistant
                  Kara Stein, Democratic Legal Counsel
   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator
                       George E. Whittle, Editor

                                  (ii)

















                            C O N T E N T S

                              ----------                              

                        THURSDAY, JUNE 16, 2005

                                                                   Page

Opening statement of Chairman Shelby.............................     1

Opening statements, comments, or prepared statements of:
    Senator Sarbanes.............................................     2
    Senator Allard...............................................     4
    Senator Santorum.............................................     5
    Senator Martinez.............................................     6
    Senator Stabenow.............................................    13
        Prepared statement.......................................    35
    Senator Reed.................................................    17

                               WITNESSES

Alphonso Jackson, Secretary, U.S. Department of Housing and Urban 
  Development....................................................     8
    Prepared statement...........................................    35
    Response to a written question of Senator Stabenow...........    73
Nelda Barnett, Member, Board of Directors, AARP..................    19
    Prepared statement...........................................    38
Dana Olson, Executive Director, Volunteers of America's Laurel 
  Manor Senior Residence, Colorado Springs, Colorado.............    21
    Prepared statement...........................................    40
Stephen Proctor, President and CEO, PHI Retirement and Senior 
  Care Services, Camp Hill, PA...................................    23
    Prepared statement...........................................    42
William T. Smith, Ph.D., Chair of the Board, American Association 
  of Homes and Services for the Aging (AAHSA)....................    24
    Prepared statement...........................................    44
Terry Allton, Vice President of Support Services, National Church 
  Residences.....................................................    26
    Prepared statement...........................................    46
Steve Protulis, Executive Director and Vice President, Elderly 
  Housing Development and Operations Corporation (EHDOC).........    28
    Prepared statement...........................................    49
David G. Wood, Director, Financial Markets and Community 
  Investment, U.S. Government Accountabilty Office...............    30
    Prepared statement...........................................    54

              Additional Material Supplied for the Record

Various letters submitted by Senator Paul S. Sarbanes............    74

                                 (iii)
















 
                          MEETING THE HOUSING
                      AND SERVICE NEEDS OF SENIORS

                              ----------                              


                        THURSDAY, JUNE 16, 2005

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.

    The Committee met at 10:07 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Richard C. Shelby (Chairman of 
the Committee) presiding.

        OPENING STATEMENT OF CHAIRMAN RICHARD C. SHELBY

    Chairman Shelby. The hearing will come to order.
    This morning, the Committee meets to hold a hearing 
examining the coordination of the housing and service needs of 
our Nation's seniors. While there are a variety of Federal 
housing programs either targeted to seniors, or containing 
special features for the elderly, few of these programs are 
linked with other services, such as health care or 
transportation, that are vital to the well-being of the 
elderly. It is all too often left up to the elderly themselves 
to make the connection across the various Federal, State, and 
local programs designed to assist them.
    My colleague, Senator Sarbanes, has introduced legislation, 
S. 705, to address this very issue. Today, over 80 percent of 
elderly families own their own homes. Almost three-fourths of 
homeowners own their home free and clear of any mortgage. Many 
seniors have a strong desire to age in place, and I believe 
greater coordination of the programs can facilitate their 
ability to do so.
    In addition, many seniors are heavily dependent upon public 
transportation in order to perform essential activities, such 
as going to the supermarket or making a doctor's appointment. 
However, over a third of elderly households report having no 
access to public transportation. This lack of access is 
particularly acute in many rural and suburban areas.
    I want to note that the public transportation title of the 
transportation bill which is pending now in the Senate as 
reported out of this Committee and passed by overwhelming 
support by the Senate, included significant increases, Mr. 
Secretary, in Elderly and Disabled Program administered by the 
Federal Transit Administration.
    Once again, I want to commend my colleague, Senator 
Sarbanes for his leadership on this issue. I also want to 
recognize Senator Santorum's interest in this issue. We are 
also fortunate to have a very distinguished group of witnesses 
this morning.
    Our first witness this morning will be someone who is no 
stranger here; the Secretary of Housing and Urban Development, 
Secretary Alphonso Jackson. The Committee, Mr. Secretary, 
greatly appreciates your willingness to appear this morning and 
your attention to this very important issue.
    Our second panel will consist of Ms. Nelda Barnett, Board 
Member, AARP, and former Director of the Maplebrook Village 
Christian Homes of Kentucky, where she continues to serve on as 
a Board Member; Ms. Dana Jo Olson, Executive Director, Laurel 
Manor Senior Residence, appearing today on behalf of the 
Volunteers of America; Mr. Steve Proctor, President, 
Presbyterian Homes, and appearing on behalf of the Pennsylvania 
Non Profit Housing Association; Dr. William T. Smith, President 
of the American Association of Homes and Services for the 
Aging; Ms. Terry Allton, Vice President of Support Services, 
National Church Residences; Mr. Steve Protulis, Executive 
Director, Elderly Housing Development and Operations 
Corporation; and Mr. David G. Wood, Director for Financial 
Markets and Community Investment, GAO.
    I want to thank all of you for appearing here today, and we 
all look forward to your testimony and having a dialogue with 
you.
    Senator Sarbanes.

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Thank you very much, Chairman Shelby. I 
want to express my appreciation to you for holding this hearing 
on S. 705, Meeting the Housing and Service Needs of Seniors 
Act. I also want to recognize a group of seniors who have come 
to the hearing from Marlow Heights, Maryland. We are pleased to 
have them with us this morning. I want to thank all the 
witnesses for the work they do every day to better the lives of 
American seniors, and we look forward to hearing from them. 
Unfortunately, much more needs to be done to ensure that our 
elderly population has easy access to the housing and service 
needs they require, particularly to allow them to age in place, 
which is an important focus of this legislation.
    The elderly population of this country is rapidly growing, 
far outpacing the growth of any other age group. In 2000, the 
population over 65 years of age was close to 35 million. The 
number is expected to grow to over 50 million by 2020, and by 
the year 2030, nearly one-fifth of the U.S. population will be 
above the age of 65. We obviously need to start preparing to 
meet the needs of this growing population so that seniors and 
their families have real choices about where and how to age. 
And that is exactly what the legislation we are considering 
this morning will do. This legislation is designed to address 
the fragmented government bureaucracy of programs for the 
elderly so that seniors and their families can more easily 
access needed support and remain in their homes.
    We cannot put this off any longer. Each of us in the room 
will be affected in one way or another. Every segment of our 
society is affected. It is not just a problem of affordability, 
although there is certainly an affordability problem. But the 
problem is lack of availability and access that is increasingly 
experienced by large segments of our elderly population.
    Every survey has shown that seniors overwhelmingly want to 
remain in their homes. They want to age in place, as they put 
it, or age in noninstitutional settings. But in order to do 
this, we have to better connect services to where seniors live. 
Over 18 percent of senior citizens who do not reside in nursing 
homes have difficulty performing their daily activities without 
assistance. Over 1 million of these seniors are severely 
impaired, requiring assistance with many basic tasks. Many 
others, those who can perform their daily functions, still 
require access to health care, transportation, and other 
services. And the Congressionally established Seniors 
Commission found in its 2000 report, ``the most striking 
characteristic of seniors' housing and health care in this 
country is the disconnection of one field from another.''
    A recent AARP report also found this disconnect. According 
to that report, ``today's subsidized rental housing is a 
patchwork of disparate programs, which creates problems in 
coordinating housing policy for diverse needs. For instance, 
many properties that serve older persons are experiencing a 
growing need for supportive services as the residents' age, but 
delivery of these services vary from program to program.''
    While there are numerous Federal programs that assist 
seniors and their families in meeting these needs, they are 
fragmented across many government agencies with little or no 
coordination. We have a diagram that illustrates this 
fragmentation. If this chart looks confusing, that is because 
it is. That is exactly the state of play. Housing and services 
are provided through different and often unconnected programs, 
many with their own requirements and eligibilities.
    This fragmentation has real consequences. The disconnect of 
housing from services places an enormous burden on seniors and 
their families in making decisions about long-term care. 
Families must not only worry about the affordability of 
housing, but they must also piece together health care, 
transportation, physical assistance, and other services. 
Without enhanced housing opportunities, seniors find it 
increasingly difficult to remain outside of nursing homes or 
other institutional settings. In fact, the Seniors Commission, 
the Congressionally mandated study that I mentioned earlier, 
found that, ``many seniors across the income spectrum are at a 
risk of institutionalization or neglect due to declining health 
and the loss or absence of support and timely interventions.''
    Now, for some of the elderly, nursing homes are a 
necessity. They are the appropriate choice. But for many 
others, options such as assisted living, service-enriched 
housing, retrofitting a home, linking services to a current 
home are the best way for seniors to age, as well as the most 
cost-effective. Seniors and their families should not find it 
easier to enter a nursing home than to remain at home with 
necessary supports. When faced with difficult decisions about 
long-term care, seniors and their families should not have to 
navigate a confusing maze of programs and services, and work 
through multiple bureaucracies. We must streamline these 
choices. I think an Interagency Council on Meeting the Housing 
and Service Needs of Seniors will help to make options more 
widely available.
    The Council will be a high level executive office, which 
the Federal Government can work to consolidate and streamline 
the various programs that exist to help our elderly. It will be 
composed of the Secretaries or designees of the agencies which 
operate these various programs: HUD, HHS, DOT, Agriculture, 
Treasury, Labor, Veterans Affairs, as well as the Commissioner 
of the Social Security Administration, the Administrator of the 
Centers for Medicare and Medicaid Services, and the 
Administrator of the Administration on Aging. It will review 
all Federal programs designed to assist seniors, identify gaps 
in services, recommend on how to reduce duplication, identify 
best practices, and work to improve the availability of housing 
linked with services. The Council will be charged with 
monitoring, evaluating, and recommending improvements in 
existing programs and services to make sure that the Federal 
Government in concert with States, localities, and private 
sector partners, is doing all they can to help seniors age in 
place or find alternative, suitable living arrangements.
    Mr. Chairman, I think this legislation could be an 
important first step. This is an effort to get a process 
working by which we can enhance the services, coordinate them, 
remove duplication, fill in the gaps, put some focus on what I 
think is a pressing problem now and will, obviously, 
increasingly become a pressing problem.I look forward to 
hearing from Secretary Jackson. We are pleased to have him back 
before the Committee and the panel to follow.
    Mr. Chairman, I have a number of letters here from various 
organizations: The AARP, which, of course, we have had a lot of 
dealings with; the Elderly Housing Development Operations 
Corporation; the Elderly Housing Coalition, made up of a number 
of groups; the American Association of Homes and Services for 
the Aging; American Association of Service Coordinators; the 
National PACE Association; National Housing Conference; United 
Jewish Communities; the Housing Assistance Council; NARO, 
which, of course, has been before our Committee on a number of 
occasions; the Council of Large Public Housing Agencies; the 
National Affordable Housing Management Association; the 
Enterprise Foundation; and the National Leased Housing 
Association; and the National Low Income Housing Coalition, and 
I ask that all of these letters in support of this legislation 
be included in the record.
    Chairman Shelby. Without objection, it is so ordered
    Chairman Shelby. Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. I would like to thank you, Mr. Chairman, 
for holding this hearing. Nearly all of us have to address the 
needs of aging parents or aging grandparents or other family 
members, so we understand the challenges present to today's 
seniors, and I appreciate this opportunity to more closely 
examine one way to help meet those challenges.
    I would also like to commend Senator Sarbanes for 
introducing S. 705, ``Meeting the Housing and Service Needs of 
Seniors Act of 2005.'' He and I worked together previously on 
creation of the Congressionally chartered Seniors Commission, 
and this bill will help implement their recommendations to 
promote better coordination.
    Quite simply, coordination makes sense. It makes sense for 
the Government, taxpayers, and it makes sense for the people 
served by the programs. Utilizing a similar model, we have seen 
improvements to the programs and services for homeless 
individuals under the Interagency Council on Homelessness. I am 
hopeful that we can find similar benefits under the Seniors 
Commission. As the baby boomers age, it is increasingly 
important that we ensure that they have the information 
necessary to make the most appropriate decisions regarding 
housing, services, and other needs.
    I firmly believe that seniors want to live in their own 
homes. I think that our challenge is to do whatever we can to 
help facilitate their desire to live in their homes. That means 
making home care services more available; it means making it 
possible for them to stay in their homes. I think in this age 
of high technology that we certainly have an opportunity, 
perhaps, to even extend long range type medical services into 
the home. You connect it in for an EKG on the chest, for 
example, or they can plug in periodically to perhaps have an 
evaluation. And I think there are other opportunities to get a 
high tech solution into homes that will facilitate those senior 
and elderly parents and grandparents and other family members 
to stay in that home with a minimum of support from family 
members.
    At one time, family members were always present, but now, 
they are not. They are spread all over the United States, and 
it is not always convenient for that level of care to happen. 
So, I think that Senator Sarbanes is addressing a real issue 
that we have here in our society, and I commend him for that. 
And in particular, I support S. 705 to identify and help 
eliminate inefficiency and duplication. This will ensure that 
all taxpayer dollars invested in housing and services for 
seniors are maximized.
    I would like to also welcome today's witnesses to the 
hearing. Your perspectives will be important as we consider 
this bill, and you bring first hand knowledge of the importance 
of giving seniors the option to age in place. I would like to 
extend a special welcome to Dana Olson, who is testifying on 
behalf of Volunteers of America. Dana is from Colorado Springs 
and does excellent work at the Laurel Manor Senior Residence to 
assist seniors. Dana, I am glad that you are here.
    I also look forward to your testimony, Mr. Secretary, and I 
know that you bring a special perspective also. And I look 
forward to working st Senator Shelby, Senator Sarbanes, and 
Senator Santorum. Now, we have a run of Ses there, do we not?
    Chairman Shelby. We do.
    [Laughter.]
    Senator Allard. To move this bill forward to help meet the 
housing and service needs of our Nation's seniors.
    Thank you, Mr. Chairman.
    Chairman Shelby. Thank you.
    Senator Santorum.

               STATEMENT OF SENATOR RICK SANTORUM

    Senator Santorum. Thank you, Mr. Chairman, and thank you 
very much for holding this hearing, and I appreciate the work 
that you have done; Senator Allard, I appreciate the work that 
you have done; and in particular, I appreciate the work, 
obviously, of Senator Sarbanes, who introduced Senate Bill 705, 
and I am honored to be a cosponsor of that legislation. And I 
do not want to reiterate what everyone said. Everyone has 
covered the legislation and certainly the reasons for it, and I 
share with everybody the importance of this issue.
    We have a very large senior population in Pennsylvania. The 
average in the country is about 12 percent of our population is 
seniors. We have a third more. We have a 16 percent population 
of seniors in Pennsylvania. We are second to the State 
represented by the gentleman on my left in the percentage of 
seniors in our population, but I believe his number is going 
down, and our number is going up.
    It is a big concern for us in Pennsylvania, and we can 
continue to build senior housing facilities and all sorts of 
other things to do really what this legislation and this 
hearing is intended to do, which is instead of building new 
facilities, to try to integrate these services to try to 
provide them at home so people can age in place, as Senator 
Sarbanes said.
    And that, to me, is the ideal. That is the one that I think 
most seniors would like to have happen. I know it is one that 
my people are going through at this time, and my in-laws are 
going through at this time in their lives. So it is very 
personal, and it is very important to the people in my State, 
and I appreciate the attention that the Committee is directing 
at it, and I look forward to working together on a bipartisan 
basis to make some progress in this area.
    Thank you very much, Mr. Chairman.
    Chairman Shelby. Thank you.
    Senator Santorum. And I apologize; I have to leave. We have 
a markup in the Finance Committee on the energy tax title, so 
if you will excuse me----
    Chairman Shelby. That is important, too.
    Senator Santorum. Thank you, Mr. Chairman.
    Chairman Shelby. Senator Martinez. You know, it is not 
often that we get the former Secretary of HUD together with the 
current Secretary of HUD.
    [Laughter.]
    Chairman Shelby. Senator Martinez.

               STATEMENT OF SENATOR MEL MARTINEZ

    Senator Martinez. Thank you, Mr. Chairman.
    I am very proud to be here today for this hearing and with 
my colleague and former partner at HUD. But Senator Shelby and 
Senator Sarbanes, I appreciate your holding this hearing on 
this important subject, and Senator Sarbanes, I commend you for 
taking the initiative to identify the growing needs of our 
elderly population, and I am very supportive of Senate Bill 
705, which would create an interagency council to oversee the 
housing and service needs of the seniors.
    But I am also pleased to welcome here today my good friend 
Secretary Jackson. I also want to make a special note: Today is 
the first time that I have had occasion to see our new 
Assistant Secretary for Housing and Housing Commissioner, Brian 
Montgomery, a good friend and a wonderful person who I know is 
going to do a great job in this very important position, and 
Mr. Secretary, first time I can call you that; wish you all the 
best, and I hope you will call if I can be of any help to you 
in your new responsibilities.
    But I have an additional special pleasure today, Mr. 
Chairman, which is also to introduce one of today's witnesses 
to the Committee. It is Mr. Steve Protulis. He is here from 
Fort Lauderdale, testifying on behalf of the Elderly Housing 
Development and Operations Corporation, where he serves as the 
Executive Director and Executive Vice President.
    His agency is considered the premier provider of quality, 
affordable housing for seniors in the United States. It manages 
42 properties in 14 States, offering affordable living options 
for low-income seniors. Mr. Protulis was formerly the Assistant 
to the President of the AFL-CIO and Executive Director of the 
National Council of Senior Citizens, one of the Nation's 
strongest voices for older Americans and families. He also 
served on the U.S. Commission on Affordable Housing and Health 
Facility Needs for Seniors in the Twenty-First Century, a 
committee appointed by the U.S. Congress.
    The Elderly Housing Development and Operations Corporation 
is dedicated to promoting quality, affordable housing for 
seniors. It is committed to the principle of aging in place, 
ensuring opportunities for elderly citizens to live 
independently with dignity and self-determination with their 
peers. The State of Florida is home to more than 2.8 million 
residents over the age of 65, and while my distinguished 
colleague from Pennsylvania was right in terms of percentage of 
population the fact is that it is a growing population.
    Over the next two decades, more than 3.6 million Floridians 
will reach retirement age. According to the 2000 Census, 51.2 
percent of Floridians over the age of 65 are considered low 
income, and 43.8 percent are considered very low income. As 
health care and housing costs continue to rise, and in Florida, 
housing costs rise dramatically each and every day, Florida 
residents will grow increasingly dependent upon the types of 
services Mr. Protulis and others like him are providing.
    In Miami-Dade County alone, the Elderly Housing Development 
and Operations Corporation manages five low-income housing 
projects, which currently serve 750 residents with more than 
1,300 eligible residents on waiting lists. In addition to 
offering basic health services such as blood pressure 
screening, and dental hygiene, the corporation contributes to 
the overall wellness through its prescription monitoring 
programs and educational classes on nutrition, exercise, and 
computer training.
    I thank Mr. Protulis for being here today and look forward 
to his testimony. But I want, in further evidence of Senator 
Sarbanes' proposal and the things that he has been speaking of; 
you are talking about 1,300 eligible residents of Florida on 
the waiting list just for these facilities in Dade County 
alone. That just goes to show, Mr. Chairman, what a tremendous 
need there is in this area for more avenues of coordination and 
more opportunities for seniors to be provided decent, safe, and 
affordable housing.
    Thank you, Mr. Chairman, and I look forward to the 
testimony.
    Chairman Shelby. Thank you, Senator Martinez.
    Secretary Jackson, your written statement will be made part 
of the hearing record in its entirety. You proceed as you wish. 
Welcome again.

            STATEMENT OF ALPHONSO JACKSON, SECRETARY

        U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Secretary Jackson. Thank you very much, Chairman Shelby, 
Ranking Member Sarbanes and distinguished Members of this 
Committee. Thank you for inviting the Department to testify on 
the Meeting the Housing and Service Needs Act of 2005. I 
commend Senator Sarbanes for bringing this matter to the 
attention of the Committee. Mr. Chairman, in order to reserve 
as much time as possible for questions, I will ask that I be 
allowed to summarize the statement.
    This Administration is strongly committed to meeting the 
needs of America's senior citizens. That commitment will be 
very publicly displayed this afternoon when President Bush 
visits the Department of Health and Human Services to roll out 
the Nation's Medicare prescription drug benefit for seniors.
    The senior population, those aged 65 and over, continues to 
grow. In the last decade, the elderly population has increased 
by 10 percent, and this trend is certain to accelerate. Over 
the next 5 years, the children of the World War II generation 
will turn 65, followed by the baby boom generations, which I am 
a member of. Within that horizon, we have every reason to 
believe that the number of seniors will double by 2030. By 
then, the Census Bureau estimates that 20 percent of Americans 
will be older than the retirement age.
    As the senior population grows, so do challenges we face in 
meeting seniors' housing needs. First, we must find ways to 
maximize housing resources in order to serve a growing number 
of seniors. Second, we must provide for very low-income seniors 
while allowing for aging in place. Third, we must improve the 
data collection methods and improve dissemination of that 
information to the end user. Fourth, we must better coordinate 
all Federal levels, working agencies to provide the seniors the 
best service. And fifth, we must create a better linkage 
between needed assessments, evaluation, and research.
    Clearly, this Nation will need to address the senior 
housing issues from a different perspective than we have in the 
past. As the Committee knows, HUD has a long history of 
providing housing, delivering related services to the Nation's 
low and very low-income elderly. Specifically, Section 202 
programs provide important resources to address the housing 
needs of the elderly. More than 375,000 units have been funded 
since the inception of the 202 program, which was established 
in 1959. More than 6,000 new units have been funded under the 
Section 202 program annually.
    These housing programs are sponsored by nonprofit 
organizations. Many of them are faith-based. These 
organizations have a history of serving the elderly and are 
committed to meeting the needs of a very vulnerable population 
in our society. The Administration is dedicated to the ongoing 
viability of the Section 202 program. We are committed to 
working with Congress, with nonprofit organizations that 
sponsor these important projects, and with the elderly persons 
who are eligible to reside within them.
    HUD's commitment to the Section 202 program goes beyond 
building housing for the elderly. We also want to ensure that 
the seniors have the services they need in order to live 
comfortably. Seniors tell us they want to live independently as 
long as possible. The Administration has recognized the 
importance of addressing both the housing and servicing needs 
of the elderly and has made these issues a top priority.
    The Department agrees with the Committee that seniors 
require a wide array of housing options with access to 
services, including meals, transportation, health care, and 
other assistance. We also agree that there are numerous Federal 
programs that assist seniors and their families in meeting 
these needs. Many government agencies exist at the State and 
local level, but we need coordination. The Department has made 
an effort to coordinate to the greatest extent possible with 
other agencies in its program, but there can always be 
improvement in communications, coordination to ensure that 
seniors have access to decent, safe, and sanitary housing and 
can obtain the necessary supportive services.
    As I understand it, the legislation before this Committee 
proposes an interagency council to promote a more cost-
effective Federal response to meeting the needs of housing for 
the seniors. If we are able to inspire an effective cooperation 
among the Federal agencies that address housing needs of 
seniors, the effort will yield long-term savings that could pay 
for home-based amenities.
    We believe the legislation before you today is a good idea. 
The concept creates the Interagency Coordinating Council for 
the Federal Government. This is very important for the 
uniqueness of the operation. There are some technical aspects 
that the Administration would like to work with Congress to 
address. In closing, let me say that the Administration and the 
Department are committed to working with Congress and the 
industry partners to address the growing needs of affordable 
elderly housing and the necessary supported services. This 
proposed legislation will provide the opportunity for us to 
work with government agencies and stakeholders and coordinate 
more effectively a basis for requiring us to address these 
needs.
    And in closing, which is not part of my testimony, I would 
just like to say that again, I would like to commend Senator 
Sarbanes and this Committee. I was in a very unique position in 
the sense that I had a very great debate with my brothers and 
sisters, as Senator Martinez knows, about my mother, and I made 
the decision that my mother would not go into a home. It was 
very difficult financially for me, but my mother lived in her 
home until her death, because I thought it was important for 
her to have that comfort, and so, I am very much committed to 
working with you on this specific issue.
    Chairman Shelby. Thank you, Mr. Secretary.
    You have had a lot of experiences, Mr. Secretary, dealing 
with various agencies here, and it is difficult at times to get 
different agencies to work toward the same objective, even when 
they share the same goal.
    Secretary Jackson. Right.
    Chairman Shelby. One attempt at this in which you have been 
involved is the Interagency Council on Homelessness. Could you 
share briefly with the Committee how well you believe that 
council has worked and whether that experience for you can 
offer us any lessons in designing S. 705?
    Secretary Jackson. Yes, Mr. Chairman. I will say this: As 
you know, Senator Martinez at that time was Secretary Martinez, 
who was the first chair, and I worked with him closely. I think 
that President Bush has insisted and continues to insist that 
the agencies work together. What has occurred before President 
Bush is that we had very simple domains where people did not 
want to interact with one another. The Interagency Council on 
Homelessness has made great strides, because we have talked 
with each other. We have come together to make sure that the 
needs of the homeless are addressed from a holistic 
perspective, not from a piecemeal perspective.
    I think the same thing can occur here with this 
legislation, because it forces us to talk and address the needs 
of the seniors not again in a piecemeal fashion.
    Chairman Shelby. Sure.
    Secretary Jackson. But in a very whole fashion.
    Chairman Shelby. Mr. Secretary, under the terms of S. 705, 
the Council would be chaired on an alternating annual basis 
between the HUD Secretary, in your case now, you, and the HHS 
Secretary. Do you believe that one year is enough time for a 
chairman to be effective, or should we consider expanding this 
to a longer term? And in addition, should we be limiting the 
chairman to just the HUD and HHS Secretaries? I realize they 
are high profile cabinet members.
    Secretary Jackson. Sure.
    Chairman Shelby. Or should other Council members also be 
eligible to serve as the chair? I do not know. I can see the 
point of both Secretaries, because you are the Secretaries.
    Secretary Jackson. Right.
    Chairman Shelby. You are Cabinet members, and that lends a 
lot of not only power but also prestige to what you are doing.
    Secretary Jackson. I would say, Mr. Chairman, I do not 
disagree with the chairmanship rotating between Housing and 
Human Services, because I think we have a direct effect on the 
lives of many seniors in this country.
    Chairman Shelby. You do.
    Secretary Jackson. There are some ancillary effects that 
the others have. So if we are going to try to do the very best 
we can to give the best service, I think those who are directly 
related on a day-to-day basis will be the best persons to 
chair.
    Second, I believe, having served on a number of boards, a 
number of university boards, that a two-year rotation is 
usually the best, because you are able at that point in time to 
get many of the programs started. And then, there is a 
continuity of about 6 months between you and the next chairman 
to discuss and make sure.
    Chairman Shelby. But you are still on the board, even 
though you rotate, right?
    Secretary Jackson. Yes, yes, you are still on the board, 
but I think that a one year service is fine, but I just think 
you have better coordination and continuity if you have a 2 
year period.
    Chairman Shelby. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    First of all, Secretary Jackson, could we assume that if 
this legislation becomes law, this allows for the Secretary or 
a designee of the Secretary, and I am interested in how much 
you would expect to be personally involved yourself in 
providing leadership to the council as opposed to turning the 
responsibilities over to a designee. Now, I know you are a busy 
man. The Secretary has a range of responsibilities. On the 
other hand, I do think to get this moving, certainly, and to 
get it up and going with the kind of authority behind it that I 
think it requires, we need the top people to take interest and 
not immediately turn it over to a designee, and I am just 
looking for some assurances out of you, at least, with respect 
to that issue.
    Secretary Jackson. Not only will I assure you, but I will 
also promise you that I will give this my utmost attention. I 
am extremely fond of seniors. I have always made sure that 
seniors live well. I am committed, and I have to tell you in 
many ways it did not come to my mind, but I am elated by this 
legislation, because I think it is going to do a very important 
job for seniors in this country, where we have not done it 
before.
    Senator Sarbanes. We have been in the process of converting 
some of the 202 senior housing into assisted living type 
facilities. I know HUD has taken an interest in doing that. I 
wonder how much cooperation you are getting from other 
Departments and Agencies in achieving that and particularly 
from HHS, which, of course, as you just pointed out, is the 
other Department that has a range of programs that are highly 
relevant to what we are concerned about here.
    Secretary Jackson. We have had good coordination, but I 
think with this legislation, if it passes, it will force us to 
have much better coordination than we have had before. But I 
cannot say that it has been a negative effect on us. It has 
been very, very supportive.
    Senator Sarbanes. One of the things the Council might do in 
the process of coordination is really develop a master strategy 
for coordination and implementation of these provisions, so 
there is actually a framework set up to accomplish this rather 
than it being done more on an ad hoc basis as we move along 
from month to month.
    And that has been one of the things we are seeking to do. 
It would seem to me that the Interagency Council, we set up the 
Trade Promotion Coordination Committee, and out of that, they 
now develop a trade promotion coordinating strategy every year. 
They keep updating it. They bring all the agencies and 
departments together to try to have a concerted strategy, and 
it seems to me we need to do something similar with respect to 
the housing and service needs of seniors.
    Secretary Jackson. I think, Senator Sarbanes, that the more 
structured it is, the better it is, because I think we can then 
focus in on addressing the needs of seniors from a very whole 
perspective. I do not like that term holistic but from a very 
whole perspective. And as I said at the end of my speech, one 
of the problems that I faced with my mother was that her needs 
were many, and you were at one specific agency to another 
agency trying to get those needs addressed. I think if we can 
structure it, the better off we are.
    Senator Sarbanes. Thank you very much, Mr. Secretary.
    Thank you very much, Mr. Chairman.
    Chairman Shelby. Senator Allard.
    Senator Allard. Yes, Mr. Secretary. You have to find a home 
for this commission. Are you comfortable having it in HUD? I 
would assume that you are.
    Secretary Jackson. Senator, Mr. Chairman, and Ranking 
Member, if you are comfortable, I am comfortable.
    [Laughter.]
    Senator Allard. Do you feel that you could adequately serve 
the needs of this commission in your agency?
    Secretary Jackson. Yes, I do, and if you choose to put it 
there, let me say this to you: I cannot reiterate again; 
Senator Martinez is here. I was very committed to my mother 
staying in her house, and I am very committed to elderly. And I 
will do whatever. As I just said to Senator Sarbanes, I will 
specifically take great pleasure in making sure this works if 
that is your desire.
    Senator Allard. Now, I notice that we have a number of 
reports being called on from the various agencies. I am 
assuming with this commission, all these various agencies also 
submit reports for the Government Procedures and Results Act. 
Are we duplicating it? Does the Government Procedures and 
Results Act already have enough reporting there that all you 
have to do is make sure a copy of that gets to maybe a 
different set of people? Or do we need a whole different set of 
reports?
    Secretary Jackson. That is a difficult question to answer. 
I think we do an awful lot of reporting, and I think if we can 
streamline it, it is all for the best. But in the process of 
streamlining, I think there still must be accountability.
    Senator Allard. Well, that is the reason I pulled up the 
Government Procedures and Results Act.
    Secretary Jackson. Right.
    Senator Allard. Because the whole idea of that is to have 
accountability. You measure performance. You put out specific 
goals and objectives, and then, you do it in a measurable way.
    Secretary Jackson. Sure.
    Senator Allard. And so that whoever is overseeing these 
programs, including the Congress, gets a feel of whether they 
are meeting certain parameters and what not.
    Secretary Jackson. I think that is very important, and let 
me say this: That is what President Bush has done with the 
President's Management Agenda. There has been a number of hue 
and cries about us having to report and live up to it, but I 
think it has been the catalyst to make us more effective in 
managing. And that is why I said if we can streamline the 
accountability, yes, I think it is important to have it. 
Otherwise, there is no measurement tool.
    Senator Allard. I want to also just bring up this issue of 
how do you plan on cooperating with State and local agencies? 
There are a lot of them involved, and I think a lot of States 
have taken a different perspective here, and is there a way 
that we can facilitate the State and local involvement and not 
get too meddlesome? Maybe you could comment on that and how we 
could evaluate in a way or put together a program that takes 
those concerns.
    Secretary Jackson. Since this is such a universal problem 
that we are all going to face, and there is no question that we 
will all face it quicker than we think, I think the more 
persuasion of all members of this interagency committee, 
whether it be HUD, whether it be Health and Human Services, 
Labor, will use our moral persuasion to discuss this issue with 
governors, with county administrators, with mayors to show them 
how important it is that we address this need from a whole 
perspective. And from my interaction with both governors, 
county administrators, mayors, it has not been a very difficult 
process to get them to understand vital issues that are 
necessary to be addressed in their respective jurisdictions.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Shelby. Senator Stabenow.

              STATEMENT OF SENATOR DEBBIE STABENOW

    Senator Stabenow. Thank you, Mr. Chairman, and first, I 
would ask that my opening statement included in the record.
    Chairman Shelby. Without objection, it is so ordered.
    Thank you for calling this hearing, and thank you to 
Senator Sarbanes for your leadership on this very important 
issue, and Secretary Jackson, it is nice to see you again. 
Welcome.
    Secretary Jackson. Thank you so much.
    Senator Stabenow. I do have a specific question, but I did 
want to make a couple of comments first. And that is that I 
think we all come together in support of certainly seniors, our 
parents, older adults, but there are a lot of big things in 
front of us right now that will determine whether or not we put 
those words into actions. I am a believer that it is about 
action, and just a more general statement for my colleagues, I 
mean, we look at the fact that over 60 percent of older 
Americans rely primarily on Social Security to live, the debate 
about privatizing part of Social Security is a big deal; it is 
a big part of this, and I am greatly concerned about that; 
Medicare and what we are doing there has a huge impact.
    This Congress just passed a $10 billion cut in Medicaid, 
which is my State, the majority of those are low-income seniors 
in nursing homes. What is a $10 billion cut going to mean for 
them? We are hearing States debate optional services, and when 
we go down the list of optional services for low-income health 
care, it is things like being able to see--eyeglasses--being 
able to hear--hearing aids--being able to chew your food--
dentures. Certainly, I do not consider that optional for me, in 
my family, and so I just raise that. That is certainly beyond 
what we are talking about today, but it is a lot of very 
serious things affecting older adults today and decisions that 
are being made, including things like home health care and 
whether or not we are going to see a long scheduled cut 
actually happen in home health care.
    I just want to bring to your attention, this is not 
something directly for you, but there are some simple things we 
can do as well for older adults: The Commodities Supplemental 
Food Program right now does not allow seniors to deduct their 
medicine in order to qualify for supplemental food payments. 
Some of us have been trying to change that for some time, and 
it seems to me that we could come together and help change that 
so that medicine does not count when meeting low-income 
standards, because for low income seniors in the commodities 
programs, they are literally choosing between food and medicine 
right now. So there are a number of things we can do.
    But on to my question: You and I had an opportunity to 
speak before you were confirmed, and I supported your 
confirmation, about the growing number of grandparents that are 
raising their grandchildren, and in fact, we were successful, 
and I appreciate the support of Members of the Committee and 
the Senate, we were successful in the American Dream Act of 
2003 in adding a provision to create demonstration projects, 
from two to four demonstration projects in Section 202 housing 
for grandparents raising grandchildren, to be able to allow 
both accommodations in terms of play equipment and other 
things, to be able to look at the impact in Section 202 
housing.
    And there were two other provisions. One was a HUD Census 
study to be done as it relates to Section 202 housing, and the 
other was that this instructed how to train employees in the 
rights of grandparents raising grandchildren. I would like to 
know the status on that provision.
    Secretary Jackson. I cannot tell you details today, but I 
will get back to you specifically with the details. I know that 
we have set it up, but I have to be very honest with you: I am 
not prepared to tell you the end results today, but I would be 
happy to get it to you immediately.
    Senator Stabenow. I would appreciate that. This is a 
provision supported by the House, Senate, and the White House. 
It is in law. We have a lot of older adults now taking on the 
responsibilities, again, of being parents, and we want to make 
sure that they are not inadvertently discriminated against in 
their housing needs. And I think it is very important that we 
move forward in implementing those provisions.
    Secretary Jackson. I know we have started. I just want to 
give you the best details now, and I cannot do that right now, 
but I will get it to you immediately.
    Senator Stabenow. Thank you.
    Thank you, Mr. Chairman.
    Chairman Shelby. Thank you. Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Secretary Jackson, a couple of questions on this issue. I 
know that the Interagency Council on Homelessness really, when 
we revitalized it, worked I think extremely well, and I hope it 
continues to be a help to the homeless population like we hope 
this will be to the elderly population. I wondered if one of 
the things that had occurred is it had just fallen off and even 
though still statutorily authorized, it was not happening. And 
we took up the mantle and have revitalized it, and it is off 
and going again. I guess what I would want to make sure, Mr. 
Chairman, in the course of this legislation is we do not let 
that happen. If we put it in the books, we want it to be 
something that has to be accountable enough to where it 
continues to happen.
    I also believe that Senator Sarbanes asked a very pertinent 
question, which is about your participation. I am delighted 
with your commitment. I know it will be there, but I also 
believe, Mr. Chairman, one of the essential keys to the success 
of the Interagency Task Force on Homelessness was not only was 
I participating and vitally interested but that it also made 
the commitment of the Secretary of HHS at the time to also be 
involved. Secretary Thompson and I worked together, and the 
fact that we would both show up at meetings, and we both 
delivered on the agenda that was set for the meetings made it 
happen.
    I am concerned about the designee portion of this, and I 
know that I, of all people, should understand how busy Cabinet 
secretaries are, and I know that for many of these secretaries, 
it is going to be impossible for them to attend: The Secretary 
of Treasury, for instance, a designee would be fine. But I 
think as to the Secretaries of HHS and HUD, particularly if 
they are going to be chairing the commission, that their 
commitment and their personal involvement is going to be vital 
to the success of it. And I would want to find some vehicle by 
which we could ensure that that took place.
    Do you not think, Mr. Secretary, that that part of the 
commitment has to be there, at least in those two key 
departments, to make sure that it works? Because if it gets 
designated down the road, sometimes, the bureaucracy does not 
get the message if the designee is too far down the road.
    Secretary Jackson. I agree with you, Senator, I agree. And 
that is why when Senator Sarbanes asked me if I would 
personally commit as long as I am Secretary to being involved, 
I said yes. Because this, to me, is a very critical issue that 
we are going to face.
    Senator Martinez. And I think also a two-year chairmanship 
would probably add to that same continuity of getting it done. 
But one other thing that was very successful in the 
Homelessness Task Force was the fact that we had a local tie-in 
as part of our strategy; in other words, the Interagency 
Council came together, but then, the work of the Interagency 
Council with our strategy then being picked up by mayors 
throughout the country really has given it life.
    It is not only what we are doing here in Washington but 
also what is happening in Dallas, Orlando, Miami, wherever it 
may be around the country. And I believe that part of the 
charge should be that we somehow develop a strategy of how 
local governments can also participate in an interagency or 
intercouncil task force to make sure that the work that is 
being done here federally has a counterpart at the local level, 
where the rubber meets the road, really.
    Secretary Jackson. Right.
    Senator Martinez. And so, I would think that maybe not 
formally in the statute but certainly as part of the charge 
that some local tie to the deliverers of local services in 
local government, that they be also, through our grant programs 
or however, that they might also be encouraged and directed to 
cooperate, because the same divisions and the same 
fragmentation that happens here also happens at the local 
level.
    Secretary Jackson. I think two things, Senator. First of 
all, I think that if it is passed, the first thing we must do 
is meet frequently for the first 2 to 3 years to establish the 
importance of the Commission and what its objectives and goals 
are. Second, I think within those first 2 or 3 years, from my 
perspective, it would be well to go out two to three times a 
year into the respective States or communities to let them have 
a voice in the say of this Commission and how they think it 
affects their States.
    I felt, when I was Deputy Secretary under Secretary 
Martinez, that having the executive management meetings in the 
field within our 10 regional offices was one of the most 
effective things that occurred, because he and I learned an 
awful lot about HUD that most secretaries never knew. Because 
once we were there in the field, they gave us great advice of 
how they felt we were not running very well, and we were able 
to benefit from that.
    I think the same thing could be said for how we address the 
needs of seniors. Because the needs of seniors in Florida are 
quite different from the needs of the seniors in Alabama, 
because we know that a number of the seniors in Florida have 
worked most of their lives, and they do not need Social 
Security as well as some of the seniors in Florida or in Texas. 
So if we listen to the States, I think we will be better 
equipped to address the issues.
    Senator Martinez. One last issue, Mr. Secretary, is the 
issue of reverse mortgages, and I know you probably would not 
be prepared to answer that for me today. But the question I 
have, and perhaps our newly minted and capable Housing 
Commissioner can help us with this. The issue of reverse 
mortgages is a vehicle by which seniors can obtain equity out 
of their homes to allow them to defray other expenses, whether 
it might be property taxes, whether it might be just living 
expenses, home improvements, whatever.
    I know there is a desire to see the FHA current cap be 
removed so that there is no ceiling on the number of reverse 
mortgages that can take place. I am also very interested in the 
fact that it has a requirement for financial counseling prior 
to any of these mortgages taking place.
    Secretary Jackson. That is right.
    Senator Martinez. I would just like to know from FHA what 
the experience has been. What has been the track record in 
terms of the impact on elderly homeowners who engage in this 
practice and I know that there are many good stories of how to 
solve problems for them; the infusion of equity cash can be a 
tremendous opportunity to get this equity that is latent there 
but get this capital to use in their later years.
    Secretary Jackson. Sure.
    Senator Martinez. And the issue of the cap and whether it 
should be removed or not. Another issue I know that is of 
concern that industry is the issue of the local FHA limits and 
whether they operate unfairly in neighboring communities just 
by the mere fact of geography and not home prices. So, I would 
appreciate an update from Mr. Montgomery, who I am sure has a 
his hands full with a whole lot of other things, on this whole 
issue of reverse mortgages and where we should go with it in 
terms of future caps or no caps, and just a good experience on 
where we have been and where we should go.
    Secretary Jackson. I can assure you that Assistant 
Secretary Montgomery will get on that immediately.
    [Laughter.]
    Senator Martinez. Yes. It would be a good chance to see 
him. And thank you very much, sir.
    Chairman Shelby. Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    I certainly want to commend Senator Sarbanes for this 
legislative proposal. It makes great sense, and in one very 
real sense, it is overdue. I mean, we recognize we have to 
coordinate better. And Mr. Secretary, thank you for your 
testimony and your service.
    One of the aspects of the seniors who want to stay in place 
is that to stay in place, they need more assistive services. I 
know we have the 202 Senior Housing program. There has been 
some effort to try to incorporate more services so it becomes 
more of an assisted living arrangement rather than simply a 
rental unit. Can you comment on what you and HHS and others are 
doing to try to help this transformation?
    Secretary Jackson. I think as the Chairman said, at one 
time, we were basically somewhat obstinate about getting into 
the assisted living area. We realize today more and more, that 
is needed; that many of the people can live, but some of them 
cannot live directly independent of each other. And that is why 
I said to you that Health and Human Services and us have been 
working well. But if we have a structure in place that says 
this is the best way to address it, I think it will be much 
better.
    And I, in reading the legislation Senator Sarbanes has 
proposed to us, I think that that begins to give us a 
structure, and we will be, in essence, forced to work much 
closer than we have in the past. And that is not to say that it 
has been negative. it has been very positive. I will tell you 
that.
    Senator Reed. I appreciate that, Mr. Secretary, and we all 
recognize that this is a growing demand, that this is a growth 
industry for seniors. I point out in my notes that by the year 
2030, nearly one-fifth of the U.S. population will be over 65.
    Secretary Jackson. That is correct.
    Senator Reed. I will be 85, with any luck.
    [Laughter.]
    I take some solace in knowing that Rhode Island is the 
fifth-largest State with a population over 85 years old, so I 
have lots of company back home. But we are addressing these 
issues of increased growth and demand with relatively flat 
budgets. The 202 budget has been declining slightly; in fact, 
doing reasonably well given the huge pressure on the budget, 
but if this was a situation of a constant demand, we would feel 
pretty good about it.
    And essentially, at the heart of the interagency effort are 
efforts by HHS to give support, which is typically Medicaid; as 
you understand there is a $10 billion cut hanging out there in 
Medicaid funding. And I would also point to transit funding, 
which is also so critical to seniors so that they can maintain 
their independence.
    Secretary Jackson. True.
    Senator Reed. Particularly the innovative programs, the 
small jitneys that move around and take people to programs and 
not traditional bus service.
    So my sense is your great challenge would not be just 
talking to each other but finding the resources to meet this 
effort. Any ideas that you have in that regard?
    Secretary Jackson. It is always a challenge for the 
resources. There is no question, Senator Reed. But I do believe 
this, that if we are able to put in place the legislation that 
we proposed for the flexible voucher program, we will level off 
the Section 8 program, which will help us tremendously look at 
other programs that I feel are very critical to the needs of 
HUD and the elderly, the handicapped, and others.
    And I think that once we do that, stop the growth of the 
program as exponentially as it has been, I think we can address 
many of the issues you just said.
    Senator Reed. Well, Mr. Secretary, I hope we do not just 
get in a situation of shifting the burden to another 
population. One of the reasons, I think, for the growth in the 
Section 8 subsidies is because the housing market has been 
accelerating dramatically. Those costs go up. And if you want 
to compensate a private landlord for putting people in his 
unit, you have to give him a subsidy that is at least remotely 
related to what he could get by going out in the market and 
putting people in.
    Secretary Jackson. I agree with you, but let me say this to 
you, because we are talking about regional areas. If you are 
talking about the East Coast or the West Coast, yes, that is 
the case. But if you are talking about the Southwest, the 
Midwest, the Southeast, the affordable housing rates in many of 
the markets have gone down substantially. And I think clearly, 
we understand that, and we compensate for the East and West 
Coasts.
    Senator Reed. I am particularly interested in compensating 
for the East and West Coasts. The East Coast.
    [Laughter.]
    The West Coast has their own people here, but from my 
perception, you can find Mr. Secretary, areas where the housing 
is rather stable, and the prices have been reasonable, but I 
have seen up in, the Minneapolis area, where it is very 
expensive there, and that is smack dab in the middle of the 
country, so I do not think it is entirely the East Coast.
    And as you know, there are some of us who are trying to do 
some things with affordable housing in this GSE bill, and we 
will get a chance to talk about that later.
    Secretary Jackson. All right.
    Senator Reed. Thank you, Mr. Secretary.
    Secretary Jackson. Thank you.
    Chairman Shelby. Mr. Secretary, we thank you for your 
appearance, and I know you will be back. Thank you very much.
    Senator Sarbanes. Could I ask the Secretary a question 
before he leaves?
    Chairman Shelby. Sure.
    Senator Sarbanes. Are you all keeping an eye on this marked 
increase in interest-free mortgages where they pay only 
interest and are not paying down the principal at all?
    Secretary Jackson. Yes, we are.
    Senator Sarbanes. All right; because I think the potential 
implications of that could be very far reaching if the economy 
takes something of a dip.
    Secretary Jackson. I think you are absolutely correct. And 
we are very much so, and I have had a number of discussions 
with Secretary Snow. That is a very critical issue.
    Chairman Shelby. Thank you, Mr. Secretary.
    Secretary Jackson. Thank you.
    Chairman Shelby. Our second panel will be Ms. Nelda 
Barnett, Board Member, AARP. Senator Bunning wanted to 
introduce Ms. Barnett, and he has a statement for the record. 
He is in a markup now, and he cannot be there, in another 
Committee, but I want to put his statement on his behalf into 
the record.
    Ms. Dana Jo Olson, Executive Director, Laurel Manor Senior 
Residence; Mr. Steve Proctor, President and CEO, Presbyterian 
Homes, Inc., Pennsylvania Nonprofit Housing Association; Dr. 
William T. Smith, President, American Association of Homes and 
Services for the Aging; Ms. Terry Allton, Vice President for 
Support Services, National Church Residences; Mr. Steve 
Protulis, Executive Director, Elderly Housing Development and 
Operations Corporation; Mr. David G. Wood, Director, Financial 
Markets and Community Investment, U.S. Government 
Accountability Office.
    I have introduced you earlier, but I wanted to do it again 
for the panel. Thank you very much. All of your written 
testimony will be made part of the record. We are probably 
going to have a vote on the floor and have to cut loose but not 
yet, and we will start with you, Ms. Barnett, if you will sum 
up your testimony in 5 minutes or less.
    Ms. Barnett. I will do the best I can.
    Chairman Shelby. Thank you so much. Welcome all of you.
    Ms. Barnett. Thank you very much. Thank you and welcome for 
your note on Senator Bunning. His staff had contacted me.
    Chairman Shelby. Yes. Senator Bunning is a very important 
Member of this Committee. He is on the Finance Committee, and 
he is tied up, and he better be where he is right at the 
moment.
    Ms. Barnett. Thank you very much.
    Chairman Shelby. But he did want me to mention that.

                   STATEMENT OF NELDA BARNETT

                MEMBER, BOARD OF DIRECTORS, AARP

    Ms. Barnett. I appreciate it. And I thank you for this 
opportunity to testify this morning. I am Nelda Barnett and I 
am from Owensboro, Kentucky. I am also a Member of AARP's Board 
of 
Directors.
    My remarks this morning will focus on the need to improve 
coordination among the various agencies, levels of government, 
and providers of housing and related supportive services that 
older Americans require in order to age with dignity in our own 
homes. It goes without saying that housing is a critical factor 
in determining our quality of life.
    During the 1990's, Americans on the average improved the 
quality of their housing, but despite the progress of the 
1990's, many low-income and moderate income, older Americans 
continue to experience serious housing problems, and their 
numbers are growing.
    Already, what we call the ``old old population,'' those 
aged 85 and older, represents the fastest growing segment among 
older persons in our Nation. This group is disproportionately 
frail and among the most vulnerable to excessive housing cost 
burdens. To be more specific, there are about 4.6 million 
Americans aged 85 and older in 2002. That number is projected 
to increase by more than 70 percent, to approximately 7.3 
million, by 2020.
    Clearly, powerful demographic forces are at work. By 2030, 
the number of persons age 65 and older will increase to 20 
percent of the population, and much of this growth will be 
driven by large increases in the number of persons age 75 and 
older. AARP supports enactment of S. 705, Meeting the Housing 
and Service Needs of Seniors Act of 2005. The need for greater 
coordination is particularly apparent when trying to put 
together the housing, health, and social service programs at 
all levels of government that are critical to successfully 
serving people with disabilities of all ages.
    Research has shown that Federal housing programs have very 
efficiently, if inadvertently, identified those who are at high 
risk of needing supportive services in order to remain 
independent. Analysis by AARP's Public Policy Institute of data 
from the 2002 American Community Survey found that compared to 
older homeowners, older renters in subsidized housing were much 
older. Half of the renters in subsidized housing were 75 or 
older, compared to just over one-third of older homeowners.
    It found it twice as likely as older homeowners to 
experience physical and cognitive limitations that threaten 
their ability to live independently, and it found it more than 
three times as likely as older homeowners to live and have weak 
informal supports from family and roughly three times as likely 
as older homeowners to be at high risk of needing Medicaid 
assistance due to low incomes and high levels of disability.
    Better coordination of housing, health, and social service 
programs would serve a variety of purposes, but the most 
compelling case for better coordination comes from the lives of 
our older people who need assistance. The older woman who is 
clinging to independent living in her apartment but has no one 
to help her bathe or just get out of the tub; the older man who 
is told he has to move to a nursing home to get housekeeping 
services; or an older disabled resident in a nursing home who 
might have been able to leave if suitable housing and services 
were available.
    AARP research consistently documents that as Americans pass 
through mid-life, regardless of whether they own or rent their 
housing, we, by and large, prefer to remain in our own homes. 
But the adaptability of housing to the processes of aging in 
place presents different challenges for housing facilities that 
have not often been designed with these life changes in mind.
    Mr. Chairman, if we continue to accept poor coordination 
among providers of housing and housing related services, we 
will see an America with an even greater number of underhoused, 
underserved older citizens and a corresponding substantial 
increase in costly and premature institutionalization of older 
people. S. 705 is a worthy first step as we begin to address 
these problems. We urge its speedy enactment.
    Thank you again for this opportunity to testify, and we 
would be very happy to answer any questions.
    Chairman Shelby. Thank you.
    Ms. Olson.

                    STATEMENT OF DANA OLSON

               EXECUTIVE DIRECTOR, VOLUNTEERS OF

            AMERICA'S LAUREL MANOR SENIOR RESIDENCE,

                   COLORADO SPRINGS, COLORADO

    Ms. Olson. Chairman Shelby, Senator Sarbanes, and Members 
of the Committee, I am Dana Olson, Executive Director of 
Volunteers of America Laurel Manor Care Center in Colorado 
Springs, Colorado, and Regional Health Care Manager of 11 
Volunteers of America senior residences in Colorado, Nevada, 
and California.
    In that capacity, I also supervise the opening and initial 
operations of our senior residence in Senator Allard's home 
town of Fort Collins, Colorado. I have worked for 34 years in 
long-term care, about 15 years of those years as Director of 
Nursing and the rest as a Nursing Home Administrator. 
Volunteers of America is one of the Nation's largest and most 
comprehensive charitable, nonprofit, spiritually based human 
service organizations. In 2004, Volunteers of America's 
services across the country sought to empower over 135,000 
seniors to maintain a healthy, engaged quality of life through 
senior centers and day programs, home repair and homemaker 
services, information and referral services, Meals on Wheels 
and group meal programs, transportation, companion services, 
elder abuse protection, case management, and coordination of 
other community services.
    On behalf of our organization, I want to express our 
sincere appreciation for your interest in Senate Bill 705, the 
Meeting the Housing and Service Needs of Seniors Act and 
concern for the needed coordination between housing, health 
care, and supportive services for the growing population of 
seniors in the United States. In a recent study, the State of 
the Nation's Housing 2001, the Joint Center for Housing Studies 
of Harvard University reported that heads of household over the 
age of 75 are expected to increase by roughly 1.3 million over 
the decade. They go on to say that this growth implies rising 
demand for housing that allows seniors to age safely in place 
and for specialized facilities such as assisted living and 
continuing care communities.
    Clearly, as a Nation, we have a problem of extraordinary 
scale and urgency, as the housing and social service programs 
and funding we have in place today will not keep pace with this 
situation. As people grow older in residences designed only for 
independent living, they are at high risk of being forced into 
institutional nursing home care or alternatively having their 
needs unmet.
    Much of this problem is due to the fact that the delivery 
of services to many persons is fragmented because of multiple 
policymaking authorities and funding streams, conflicting 
regulations, and poorly coordinated overlapping Federal and 
State government agencies. This fragmentation is not only 
costly; but it also oftentimes leads to serious gaps in 
providing what is needed.
    It is because of this existing fragmentation that passage 
of Senate Bill 705, the Meeting the Housing and Service Needs 
of Seniors Act, is so important as a step in the right 
direction to better coordinate our housing programs and related 
services, so seniors can age in place and have access to needed 
services.
    Let me tell you a little about my experience in Colorado. 
As the administrator of a skilled long-term care center, I am 
seeing older, more frail, acutely ill seniors coming to us for 
care and rehabilitation to allow them to return home or to a 
lesser level of care in the continuum. As the people we care 
for come to us much more acutely ill, and the regulations under 
which we operate become more and more stringent, the fragmented 
system is more difficult to work with.
    We never want to be in a position that limits the services 
we need to provide to give our residents the highest quality of 
service possible, but we need your help to do so. As the 
Regional Housing Manager of five 202 senior housing complexes 
in Colorado, we have a waiting list of over 200 seniors. That 
means 200 seniors are out there in need of our services, and we 
are not able to meet those needs at this time.
    This only reinforces the need for more available services 
for our seniors. The best way to meet this need is to have 
adequate funding to build additional senior apartment 
facilities with a service coordinator in each facility. The 
person would have the capability of assisting our seniors 
access the system to fill the need for food, medical care, and 
other supportive services.
    But even good service coordinators have difficulty 
unraveling the myriad rules, regulations, agency sources, and 
funding streams that are intended to serve senior citizens. 
Passing this legislation and establishing a Federal Interagency 
Council on meeting the housing and service needs of seniors 
would provide a structure for a Federal agency to jointly 
review housing and service programs, more effectively 
coordinate Federal programs and services, and work with States 
to coordinate programs and services at the State and local 
level.
    For the sake of our Nation and its deserving senior 
citizens, we must find an efficient, well-coordinated means of 
providing long-term care through integrated health care with 
supportive services and housing, and that process has to start 
at the top. That is why Volunteers of America believes that the 
Meeting the Housing and Service Needs of Seniors Act must be 
passed as a bipartisan testimony to the worth of our older 
generations.
    We appreciate the opportunity to bring you our ideas and 
perspectives and want to ensure all of the Members of the 
Committee that Volunteers of America is strongly committed to 
helping resolve these issues before the growing demand for 
elderly housing and supportive services spirals out of control. 
We are confident that sound solutions can be found and 
implemented in a way that is fiscally responsible and fair to 
all parties.
    Thank you.
    Chairman Shelby. Mr. Proctor, I just wanted to mention, as 
you well know, Senator Santorum was here earlier. He is a 
Member of the Finance Committee. They are having a markup, and 
he wanted me again to reiterate if he could be here, he would 
like to acknowledge your presence.
    Thank you.

                  STATEMENT OF STEPHEN PROCTOR

          PRESIDENT AND CEO, PRESBYTERIAN HOMES, INC.

              RETIREMENT AND SENIOR CARE SERVICES,

                    CAMP HILL, PENNSYLVANIA

    Mr. Proctor. Thank you.
    Chairman Shelby. Go ahead.
    Mr. Proctor. Good morning, Mr. Chairman and distinguished 
Members of the Committee. I am Steve Proctor, President and CEO 
of Presbyterian Homes, headquartered in Camp Hill, 
Pennsylvania, and I am honored to be able to provide you with 
some testimony today on behalf of Presbyterian Homes and the 
Pennsylvania Not for Profit Homes Association, the principal 
association that provides representation for faith-based 
providers of senior services.
    As was mentioned earlier, the population we serve in 
Pennsylvania is among the Nation's oldest and, in many areas of 
the State, requires a significant amount of care. We have 15 
facilities in Pennsylvania, but we also have facilities in 
Maryland, Delaware, and Southeastern Ohio. Some are located in 
urban areas; others are located in some of the most rural 
places you can imagine.
    We provide a full continuum of care for Pennsylvanians in 
need of chronic care. Seniors in some of our locations are 
younger individuals with disabilities. Our staff, about 2,600 
individuals, provides housing and services to more than 3,000 
residents Statewide, and we are very proud of the history of 80 
years of service or providing this kind of care.
    When I was first told about the intent of S. 705 and asked 
to testify, I was a little skeptical. Historically, proposals 
to initiate this type of council have been many, and the 
solutions coming from them have not always lived up to their 
original billing. But when I read Senator Sarbanes' bill and 
comments during the introduction of this piece of legislation, 
we discovered that it was very consistent with PANPHA's 
Strategic Initiative on Consumer Choice. That is, housing and 
services alignment driven by consumer need, not the wishes of 
often well-intentioned bureaucrats and funding agencies.
    We strive toward this goal because it is how consumers wish 
to, and deserve to, receive the services they need and want. In 
short, this bill makes sense. The coordination proposed in S. 
705 is not only necessary; it is long overdue and will provide 
real enhancements in the delivery of housing and services to 
the people we serve.
    As a provider of housing and services, I thought my time 
before you would best be focused on some specific examples of 
how things work in terms of the statutory regulatory and 
funding maze that is out there. PHI is a sponsor of Stadium 
Place, a model for senior housing located on the site of 
Memorial Stadium in Baltimore. The site currently contains HUD 
housing, tax credit housing for seniors, market rate and 
homeownership developments to follow. It shares a site 
containing a full service YMCA and has developed to provide 
seniors with limited incomes many of the same options available 
only to more affluent seniors of continuing care retirement 
communities.
    A recent editorial in the Baltimore Sun identified Stadium 
Place as the right model for senior housing. More importantly, 
many of the residents of Stadium Place describe it as the best 
place they have ever lived, and if you have not seen this 
project, I would encourage you to visit this site.
    But the key to really realizing the dream of Stadium Place 
Memorial Stadium and other senior housing projects of similar 
scope is the delivery of supportive services in an environment 
that can best and most charitably be described as fragmented. 
The combination of case management, coordination of existing 
services, and flexible delivery service systems will enable 
this group of seniors to live more healthy and active lives.
    The timely intervention of health and social services will 
ultimately save money by helping residents of Stadium Place to 
age in place. Aging in place is obviously what people desire if 
their needs can be met, and that is if their needs can be met. 
PHI has a person in one of our facilities who has been in that 
particular project since being admitted with her disabled 
husband in 1970, so she has really aged in place. We are able 
to meet her needs, and that is becoming more increasingly 
difficult as she is in her mid- to upper 1990's. Without better 
coordination among and across the agencies that deliver 
services to her, it is doubtful that we can provide a continued 
opportunity for her to age in place as she would prefer.
    There are many examples of the housing and service needs of 
seniors not matching up with inflexible regulations and program 
requirements. There are a couple of examples of this that are 
listed in my printed testimony. They are very obvious in terms 
of not providing the ability for services to follow people to 
the place they are moving to. You will see examples of people 
not having services follow them. Their needs have changed; 
their income has not changed, but where they live has changed.
    You will find that there is a tremendous amount of support 
not only among service providers but among the people we serve 
for this as they struggle to find their way through one 
application process after another or struggle to find services 
at all. They would be here with me today supporting and 
seconding all of this.
    I will not go over all the statistical evidence of 
Pennsylvania and all of the seniors we have to serve. That is 
well-documented and actually frightening, but I would like to 
second my colleagues' opinions up here in terms of supporting 
this bill. It is a wonderful bill. We hope it realizes the 
promise that we all expect from a first rate effort.
    Thank you.
    Chairman Shelby. Thank you.
    Dr. Smith.

              STATEMENT OF WILLIAM T. SMITH, Ph.D.

       CHAIR OF THE BOARD, AMERICAN ASSOCIATION OF HOMES

               AND SERVICES FOR THE AGING (AAHSA)

    Mr. Smith. Chairman Shelby, Ranking Member Sarbanes, and 
Members of the Committee, I would like to thank you for 
inviting me to appear before you today to discuss Senate Bill 
705. I have submitted written testimony for the record, so for 
my comments this morning, I would like to talk to you about the 
real world experience of providers and seniors we serve as well 
as the opportunities that this bill presents for making service 
delivery and program administration less cumbersome and more 
responsive.
    My name is William Smith. I am the Chair of the Board of 
the American Association of Homes and Services for the Aging, 
AAHSA. AAHSA members serve 2 million people every day in 5,600 
facilities throughout this country through mission-driven, not 
for profit organizations dedicated to providing the services 
people need when they need them in a place that they call home.
    AAHSA members offer the continuum of aging services: 
Assisted living residences, continuing care retirement 
communities, nursing homes, home and community based services, 
and senior housing. Our commitment is to create the future of 
aging services through quality that people can trust. It is 
this commitment that underlines our support for this 
legislation, its goals, and increasing the effectiveness and 
collaboration amongst Federal programs that serve our seniors.
    In addition to my work with AAHSA, I serve as the President 
and CEO of Aging in America, a community-based organization 
that originated in 1852 with a mission of providing housing for 
aged women and has evolved into a full service organization 
employing over 550 staff that serve over 5,000 seniors 
annually, primarily in the Bronx but also in the neighboring 
areas of New York.
    I know firsthand how complicated and difficult it can be to 
work with a patch quilt of programs to create the range of 
housing and services necessary to care for seniors with varying 
degrees of frailty and need. In 1972, Aging in America 
developed a skilled nursing facility for 386 residents and 
later established a continuum of community-based services. In 
1978, we converted a 90,000 square foot former high school into 
our social service agency, including a number of community 
based activities, intergenerational programs, Alzheimer's day 
care center, case management, victims assistance, elder abuse, 
and, frankly, support for grandparents raising grandchildren.
    We opened our first senior center in 1979, and since then, 
we have had two off-site senior centers and four satellite 
programs providing recreation, education, information, 
referral, wellness programs, et cetera, to over 1,500 older New 
Yorkers weekly. We delivered hundreds of meals and last year 
provided nearly 300 seniors with 3,465 trips to medical and 
social service providers.
    In order to help clients navigate the maze of Federal, 
State, and local programs, we have developed a comprehensive 
case management program that provides services for over 700 
elderly New Yorkers conducting in-home assessments and 
authorization of the delivery of in-home personal care, 
housekeeping services, and home delivered meals. We have a 17-
bed temporary housing unit that provides respite, emergency, 
and permanent living arrangements for people over 60.
    Senate Bill 705 is integral to the goals and policy laid 
out by the Commission on Affordable Housing and Health Facility 
Needs for Seniors in the Twenty-First Century. The demographics 
compiled by that Commission are staggering. Today's seniors 
comprise 12.4 percent of our population. That is 35 million 
people. By the year 2030, that number will have doubled: 70 
million seniors, 20 percent of our population. I live in 
Westchester County, and 20 percent of Westchester County is 
already above the 65 year age group.
    One of the Commission's primary recommendations was a call 
for the coordination of housing and health care among 
departments, stable, affordable housing settings. Those places 
that seniors call home are the cornerstone of service delivery. 
I cannot overstate the importance of bringing services to these 
housing settings among all income levels. In 2020, those 
seniors that will need some form of assistance will be 5.8 
million homeowners, 1.5 million unsubsidized renters, and 
almost 600,000 with some form of rental assistance. The Federal 
and State governments did not set out to create a complicated, 
contradictory, sometimes duplicative system of programs and 
funding mechanisms for serving those who are most in need, but 
unfortunately, that is what we have.
    With over half of our senior population at 75 years of age 
and older, we need to do a better job of making and 
coordinating that array of services. Senate Bill 705 is a 
significant step in that direction. It really is landmark 
legislation, and we strongly support it and support in 
particular the use of common vocabulary, common age for 
eligibility, common definition of eligible populations and 
standards for programs.
    Chairman Shelby, Members of the Committee, I want to thank 
you for your time this morning. I would certainly like to thank 
Senator Sarbanes for introducing this legislation and taking 
this important first step. And frankly, I would like to thank 
the other Committee Members also for their support for this 
very important legislation.
    Thank you.
    Chairman Shelby. Ms. Allton.

                   STATEMENT OF TERRY ALLTON

              VICE PRESIDENT FOR SUPPORT SERVICES

                   NATIONAL CHURCH RESIDENCES

    Ms. Allton. Good morning, Chairman Shelby, Ranking Member 
Sarbanes, and other Members of the Committee. My name is Terry 
Allton. I am Vice President of Support Services at National 
Church Residences. We are a nonprofit housing and supportive 
services and health care provider based out of Columbus, Ohio. 
We employ 154 service coordinators throughout the United States 
who provide services to our seniors. I am very excited to be 
here today to talk about housing and supportive services and 
especially the Senate Bill 705.
    Congress' establishment of the service coordinator program 
launched a profession with the sole purpose of addressing 
quality of life issues for the elderly, offering possible 
solutions to aging in place. The service coordinator program is 
the Interagency Council in action. The goal of a service 
coordinator is to link residents with services that exist in 
the community, allowing them to remain independent, in their 
own homes, and avoiding the premature institutionalization that 
they so fear.
    The primary function of a service coordinator is to work 
with service delivery systems, provide resource information, 
identify programs, and assist seniors through the labyrinth of 
regulations attributable to a multitude of government agencies. 
Our elderly residents typically do not know who supplies which 
services or that some services even exist within their 
community, and that is why the prospect of the Interagency 
Council is so exciting.
    National Church Residences is a founding organization of 
the American Association of Service Coordinators. This is a 
national, nonprofit organization representing more than 1,500 
service coordinators who serve more than 400,000 low-income 
elderly across the United States. Like others on this panel, 
National Church Residences is an active member of AAHSA and its 
State affiliate, the Association of Ohio Philanthropic Homes, 
Housing, and Services for the Aging. I am here also 
representing AASC, the American Association of Service 
Coordinators, as the current Chair of their Board of Directors. 
AASC has long urged that housing, health care, and other 
Federal support programs serving the elderly join together to 
better focus Federal policy and regulatory efforts in 
conjunction with States and communities. Senate Bill 705 will 
do exactly that.
    Before I talk about our service coordinator program, I 
would like to talk about NCR's commitment to the preservation 
of affordable housing and serving residents as they age in 
place. NCR has long advocated for Congress to recognize the 
importance of preserving existing affordable housing and 
helping residents at risk of losing their housing as providers 
opt out of HUD programs and sell or convert their properties to 
market rate.
    We are losing more senior housing than we are currently 
building. This means that seniors are and will be in a 
precarious position to meet their housing and service needs 
unless we are able to preserve affordable housing. Housing 
services go hand-in-hand for seniors who are aging in place. 
One without the other spells disaster for residents as they 
become frailer, with limited options and fewer resources. 
Service coordinators serve as a lifeline for seniors in all 
manner of housing settings and have become an increasingly 
important part of our older senior housing communities, where 
people have lived 20-plus years aging in place.
    For individual residents, service coordinators do, on the 
local level, or at best try to do what this legislation would 
do at the Federal level, by coordinating what is frequently 
referred to as a crazy quilt of health, housing, and service 
programs that are used by seniors, service coordinators, and 
properties. They identify resident needs; they work within the 
community to locate existing resources: And they provide 
service management to organized health and wellness programs so 
that residents who live in these communities who do not know 
services exist, they broker those services and bring those 
services to the residents.
    They offer one-on-one help for residents by providing 
intensive assistance, helping residents understand insurance, 
Medicaid, Medicare, entitlement programs, and benefits that 
they might not even know that they are eligible for. They act 
as a broker for services that are difficult to obtain through 
public resources and assist residents in securing the help that 
they need to live safely and independently through community 
agencies.
    The first stage of providing a continuum of housing and 
service choices for the elderly is in home supportive services. 
Navigating through a system of segmented service providers and 
benefits is often difficult for older persons and their 
families. As I said, service coordinators are the Interagency 
Council in action. Their lives and jobs will be made a lot 
easier by Senate Bill 705, not to mention what it will mean to 
seniors and family caregivers who might be unfamiliar with the 
aging services field.
    In addition to navigating services which should be made 
easier by this legislation, service coordinators help elderly 
residents take advantage of cost saving programs such as 
prescription drug discounts so that the elderly are not 
choosing between paying the rent, buying food, or getting their 
prescription drugs. Service coordinators also provide a cost 
saving benefit to subsidized housing communities, saving those 
communities money by preventing unnecessary vacancies when 
residents might go on to a long-term care or some type of 
situation that they might not need.
    So, I will end my comments at that point. I thank you very 
much for letting me present today, and I will entertain 
questions later.
    Chairman Shelby. Thank you.
    Mr. Protulis.

        STATEMENT OF STEVE PROTULIS, EXECUTIVE DIRECTOR

              AND VICE PRESIDENT, ELDERLY HOUSING

         DEVELOPMENT AND OPERATIONS CORPORATION (EHDOC)

    Mr. Protulis. Thank you, Mr. Chairman. I really appreciate 
the opportunity to share with you some of my frustration of the 
last few years.
    First of all, I want to thank you, Mr. Chairman for having 
a great staff on the basis that, in my opinion, Mark is one of 
the greatest assets you have, and the Chairman is not hearing 
you, Mark, I am sorry, but he will.
    [Laughter.]
    Mark is an outstanding young man you have working for you, 
sir, and I want you to know that he needs a raise.
    [Laughter.]
    Chairman Shelby. I agree. He needs to be better paid.
    [Laughter.]
    Mr. Protulis. Yes, sir. That is exactly right.
    Senator Sarbanes. There is a law against lobbying the 
Congress on----
    [Laughter.]
    Mr. Protulis. Okay; I plead the Fifth.
    The truth of the matter is I have gone through many notes, 
and I have already submitted my written testimony, so I want to 
be brief and just speak from my heart instead of my notes.
    And I just wanted to share a couple of things. I wanted to 
just bring quickly, in my opinion, an observation that is real 
because it is in this room. There is a lady in a wheelchair 
sitting in the back; Mary, would you please wave?
    Chairman Shelby. Hold her hand and identify her. I see her.
    Mr. Protulis. Thank you, Mr. Chairman.
    Mary lives in our property in Maryland and she was very 
depressed, because her doctor, on the basis of frailty, told 
her that you need to go to a nursing home. Now, here is an 
example: If you took the time to listen to her agonizing 
personal feeling--no matter what the physician says--but an 
individual being told that you have to move from your home, 
from your place that you are comfortable, and go someplace that 
is new and scary, it was something she did not want to deal 
with, and the depression took over.
    Our service coordinator, actually took time to find an 
organization that will provide the means so she can age in 
place, and today, she remains in her place, and through the 
PACE program, we were able to provide for her needs so that she 
was able to age in place and be happy. With that example, Mr. 
Chairman, you can see there are thousands of other stories 
where we can keep seniors living in the same area and be happy 
because they are getting their needs met and the service they 
need.
    Prior to working on this bill, I was actually wearing a 
different hat. I was appointed by this illustrious, great 
Senator from Maryland, Senator Sarbanes, to a commission. And 
when I took that job, I was probably the most ignorant person 
among all the commissioners. And when we went through hearings 
and listened to the testimony from all kinds of experts and 
knowledgeable people like on this panel, I was mystified to the 
lack of knowledge that I had myself and the fact that even in 
our own commission, which we were given a very short window, 18 
months, they cut us $800,000, so we could not get enough 
witnesses to bring forward; we only had six hearings around the 
country.
    We managed to come out with recommendations, and Mr. 
Chairman, I have this book here, and I want you to know it is 
does not have all the answers in here, but there is plenty of 
information. So having this agency, Mr. Chairman, and you 
having the leadership to follow the wishes of a great Senator 
like Sarbanes, where is the question--who can be opposed to 
this? Who can be opposed to giving seniors a choice? And you 
know, the only statistic we have in this country are the 
provisions that we have when we provide services to poor 
seniors, because it is an inadequate system, because it comes 
with resources from the Federal Government.
    But do you know that every single one of us in this room 
sooner or later, if it already did not happen, will have to 
face a reality like the Secretary of HUD mentioned earlier 
about his mother's decision to stay in her home. And what is 
available out there? There are some great stories where people 
have been provided great benefits through the private sector, 
government assistance, States doing great work, stories that we 
do not even know exist today in trying to keep that senior 
aging in place.
    So, I just want you to know that the timing is almost too 
late, but it is important that we are doing something 
expeditiously and urgently. I just had the privilege yesterday 
morning to attend an AARP conference where there were over 350 
delegates from all over the world to discuss aging in place. 
The Premier of British Columbia testified in front of all of 
us. And one of the issues that was mentioned about the agencies 
that are set up in his own province, how difficult it is to 
tell bureaucrats from an agency you have to compare notes with 
someone else, as it was addressed this morning, and it is a 
major issue.
    So the mandate to make this Interagency follow the rules 
and learn the best stories out there, not just the resources 
coming from the Federal Government but how we can make those 
seniors feel there is a place where they can make choices and 
compare notes. Thank you for the opportunity to testify.
    Chairman Shelby. Thank you.
    Mr. Wood.
    Senator Sarbanes. Mr. Chairman.
    Chairman Shelby. Yes, Senator Sarbanes first.
    Senator Sarbanes. Mr. Chairman, I am going to have to leave 
the hearing, because there is another group that has come from 
my State that we had early on arranged to be here. I do want to 
thank all the witnesses for their testimony and for the very 
strong statements. I have looked through these statements, and 
we very much appreciate the obvious care and effort that went 
into preparing these statements. These are very valuable in 
building a record in support of the legislation, and I am very 
hopeful that we will be able to move ahead on this legislation 
and provide the kind of support that it would give to the work 
that you are doing.
    And I do want to thank you once again for the work you are 
doing. It is enormously important.
    Chairman Shelby. Thank you, Senator Sarbanes.
    Senator Sarbanes. Thank you.
    Chairman Shelby. Mr. Wood.

             STATEMENT OF DAVID G. WOOD, DIRECTOR,

           FINANCIAL MARKETS AND COMMUNITY INVESTMENT

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wood. Thank you, Mr. Chairman, and I thank you and the 
Ranking Member for inviting me today.
    My statement is based primarily on our recent report 
concerning Federal housing assistance programs to benefit the 
elderly. The report was requested by the Senate's Special 
Committee on Aging, which was particularly interested in the 
availability of supportive services for the elderly who reside 
in federally assisted housing.
    Federal programs aid the provision of housing in a variety 
of ways, ranging from financing the construction and 
rehabilitation of units to helping pay rents. With few 
exceptions, the programs are not specifically directed at the 
elderly, although many can and do benefit from them. We 
identified a total of 23 Federal assistance programs whose 
beneficiaries explicitly include the elderly; two that are 
targeted exclusively to the elderly; three that are targeted 
exclusively to the elderly or the disabled; 18 that have 
special provisions for the elderly such as income adjustments 
that make it easier for them to qualify.
    These programs do not reach all eligible households, and 
waiting lists are often long. Only 4 of the 23 housing 
assistance programs require that participating property owners 
ensure the availability of supportive services. For example, 
HUD Section 202 programs subsidize the development and 
operating cost of multifamily properties, exclusively for the 
low-income elderly. Owners must ensure that residents have 
access to transportation and other services.
    The Agriculture Department's Congregate Housing Program 
funds the development of independent living facilities, which 
must provide meals, transportation, housekeeping, and personal 
services. Neither HUD nor Agriculture provide funds under the 
four programs for supportive services. However, HUD does offer 
grants and other assistance that can be used to provide some 
services to elderly residents of federally assisted housing. 
Property owners typically obtain needed funds from a variety of 
sources, including HUD's or other Federal programs or form 
partnerships with local charities or nonprofits to provide 
services.
    For health care, a key source is the Department of Health 
and Human Services. For example, the Department's Public 
Housing Primary Care Program provides some elderly public 
housing residents with primary and preventive health care 
through on-site clinics, while the Medicaid Home and Community 
Based Services Waiver program enables elderly residents to 
receive needed health care in their current homes, including 
federally assisted housing.
    We do not have comprehensive data on exactly what services 
are provided to the elderly or how they are funded at all 
Federally assisted housing programs. However, given the range 
of programs and funding sources, it is likely that they vary 
considerably. As the Seniors Commission report illustrates, 
many elderly Americans can be expected to need both housing and 
health care services in the future. This is yet another case in 
which achieving a Federal goal requires the concerted and 
coordinated efforts of two or more agencies. However, GAO's 
work has shown that a number of barriers inhibit coordination 
among agencies. These include missions that are not mutually 
reinforcing or that may even conflict, concerns about 
protecting jurisdiction over missions and control over 
resources, and incompatible procedures, processes, data, and 
computer systems.
    Addressing the potentially large service needs of a growing 
elderly population will call for effectively overcoming these 
or other barriers. That concludes my prepared statement. I will 
be glad to answer any questions you have.
    Chairman Shelby. I want to thank all of you, and I also 
want to again thank Senator Sarbanes for his leadership in this 
area. I have several questions, and I will ask, and then, I 
will have some for the record.
    It is very important here as far as the topic. S. 705 would 
charge an interagency council with making recommendations for 
streamlining Federal housing programs and services for seniors. 
That is what we are trying to get at.
    Mr. Wood, GAO's February 2005 report, which you have 
alluded to, states that there is little available information 
about the effectiveness of these housing programs serving the 
elderly. We want them to be effective, though. What criteria, 
Mr. Wood, do you believe that the council should use in making 
its recommendations? In other words, your testimony refers to 
existing program missions that are not mutually reinforcing and 
sometimes conflicting.
    Mr. Wood. Right.
    Chairman Shelby. Should Congress require the Council to 
establish goals, Federal goals for seniors' housing and 
services, goals against which the performance of all of these 
programs should be judged or would be judged?
    Mr. Wood. I think we have in several, a couple of reports 
in the past stressed a couple of things that have already been 
mentioned at this hearing this morning. One was by Senator 
Allard when he talked about the Government Procedures and 
Results Act. We have testified and reported on many occasions 
that that offers a good framework for both establishing goals 
and for promoting coordination. It is actually a required 
element of agencies' strategic plans, their annual plans, and 
their annual reports to report on the extent of coordination 
that they have engaged in with regard to cross-cutting----
    Chairman Shelby. It makes a lot of sense, does it not?
    Mr. Wood. Absolutely.
    Chairman Shelby. Senator Allard is very involved in the 
housing, and Ms. Olson and everybody else knows, and is a 
senior Member of this Committee. He has done a lot of work in 
this area.
    Mr. Wood. Right; the other thing that I would mention, 
again, that came up this morning is we have long said that it 
requires--effective coordination requires a commitment at the 
top, and by requiring the Secretaries themselves to be part of 
this Council it addresses that.
    Chairman Shelby. Be very involved.
    This type coordination could be, as you know better than 
anyone, the coordination of services to the elderly to let them 
live in place could be one of the biggest cost savings for the 
American people and also could be something that the elderly 
want to do.
    Mr. Protulis. Absolutely.
    Chairman Shelby. I do not know myself of any of the elderly 
that would not rather stay in their home, as you have pointed 
out, where they are comfortable, something that they are used 
to. This is just common sense, human nature, is it not, Mr. 
Protulis?
    Mr. Protulis. Not only that, Mr. Chairman, but also in 
these days of cuts in Medicaid and Medicare, we prove over and 
over by keeping them at their home and providing service, we 
save money, which is something----
    Chairman Shelby. Save billions and billions of dollars.
    Mr. Protulis. And there have never been statistics shown, 
and it is for real. It exists.
    Chairman Shelby. I think you are absolutely right.
    I am going to reference S. 705 again. We all have. It would 
allow State and local representation on the Council. I believe 
this is an important element to have the representation, have 
the involvement. As many housing, health care, and 
transportation programs as we all know are carried out by the 
State and the local governments. S. 705 directs the council to 
select these representatives.
    To any of you, would you like to comment, would this be a 
workable process? Should Congress specify a particular number 
of State or local representatives? Should Congress also specify 
a more detailed method of choosing which State and local 
representatives should serve on the Council? Or should that be 
left up to the Council?
    Who wants to tackle that?
    Mr. Protulis.
    Mr. Protulis. I just personally think that my initial 
reaction is that there has been such overwhelming need to have 
community involvement so we can safeguard not only the policies 
already established by the Government but also where the best 
stories are, where the real good stories are taking place, and 
they are on the local level. So how do we go about structuring 
that? I would say that the more involvement in the community it 
is, the better off it is going to be.
    Chairman Shelby. Sure.
    Mr. Protulis. And I also want to add one more: If you ask 
those 30-some seniors sitting behind us which is the number one 
issue outside of the health care needs, transportation is 
critical. And I think that department of our agency of the 
Government also can play a critical role in how we provide 
transportation, because transportation, when they give up their 
car, depression sets in; they sit in their room; they do not 
want to leave. So just housing in place is important to aging 
in place, but keep them involved in the community, and that 
transportation is a critical element.
    Ms. Barnett. Mr. Chairman, may I comment on this also?
    Chairman Shelby. Yes, Ms. Barnett.
    Ms. Barnett. I come from a rural area, and transportation 
is very important. We do not have access to public 
transportation in only two small areas there. But the cost of 
transportation is so extremely high that our providers are 
saying if we go bring a person in to a medical facility, we 
have to have three of these people to bring in for it to be 
cost-effective for us. So they cannot bring one in, delaying 
health care at that point. So this is another reason that I 
feel that this is so very important, that if we can provide 
these services in facilities to keep them aging in place that 
it is very important to do so.
    Chairman Shelby. Thank you.
    Ms. Barnett. I strongly support this bill.
    Chairman Shelby. Dr. Smith.
    Mr. Smith. You know, I get teased by the adage that all 
politics are local.
    Chairman Shelby. Well, there is a lot of truth in it.
    Mr. Smith. I know, I know.
    Chairman Shelby. A lot of us that run for public office 
recognize that.
    Mr. Smith. Know that law very well.
    [Laughter.]
    I think it is important that the Federal Government and 
through this excellent bill really model how this can be done. 
I think that clearly, the Secretaries of both major agencies 
should be mandated to be in attendance for at least a period of 
time of 2 or 3 years, something like that, and then, perhaps, 
50 percent of the meetings going on from there if it is 
necessary.
    But I think the leadership at the top is key. I think for 
the Commission to appoint--I mean, somehow, they have to 
solicit recommendations from the local area and get some 
endorsement from the key players in States or cities. I come 
from New York that has not found a Federal law that it cannot 
embrace and enhance, so I get nervous about more regulations 
coming down the line.
    I think where the Commission could clearly help us with 
that leadership is also looking at common language, common 
eligibility rules, age rules. I mean, I work with seniors that 
as they age in place and get older, they fall out or fall 
ineligible for different types of programs to let them still 
age in place. So, I think we really have to insist upon common 
definitions. And forcing these agencies to work together, be in 
the same room once or twice a year, maybe even more than that, 
would be a wonderful first start.
    Chairman Shelby. Well, I really like the term coordination 
more than regulation.
    Mr. Smith. Yes.
    Chairman Shelby. And if we can coordinate, it is more than 
just common sense. I think you have all demonstrated it. You 
are involved in it. And I think this is a worthy piece of 
legislation if we can make it, pass it, and make it work, and 
if we are able to pass this type of legislation, it will be 
meaningful, but it will be a heck of a lot more meaningful if 
it is coordinated and worked, implemented, executed, so to 
speak.
    Mr. Smith. And AAHSA would certainly stand ready to help 
the Committee find additional sponsors around the country to 
really get this legislation passed. So many people will benefit 
by it.
    Chairman Shelby. You make it bubble up locally.
    Mr. Smith. Absolutely.
    Chairman Shelby. We feel it here, as you know.
    I want to thank you all for your appearance but more than 
that for your involvement. You are committed to a worthy goal.
    The hearing stands adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
    [Prepared statements, response to written questions, and 
additional material supplied for the record follow:]
             PREPARED STATEMENT OF SENATOR DEBBIE STABENOW
    Mr. Chairman, thank you for calling this hearing. And, thank you 
Senator Sarbanes for championing this issue. I could not agree with you 
more that better coordination of our Federal resources aimed at 
assisting seniors is one that needs attention. With seniors comprising 
more than 12 percent of the Nation's population and that number 
increasing every year, we must begin putting in place the 
infrastructure necessary to handle the broad array of services that 
seniors draw upon each day.
    My home State of Michigan has more than 1.2 million residents over 
the age of 65 and they will all benefit from a more efficient 
coordination of the services that assist with their housing and other 
necessary services.
    As we know, many of our seniors need assistance with their daily 
activities. Other seniors need assistance with medication, meals, 
transportation, health care, and other needs. And, right now, we do not 
do a great job in matching up a person's housing needs with the way we 
deliver these vital services.
    There are so many ways we can improve our safety-net services to 
make them more effective. As a Member of the Senate Agriculture 
Committee, I have seen that also happen with our Federal nutrition 
programs.
    I have meet with food banks that are frustrated that many seniors 
they would like to help are not eligible for USDA's important nutrition 
program--the Commodity Supplemental Food Program (CSFP). That is 
because seniors cannot deduct the cost of their medications when 
seeking eligibility for food assistance. We have people who are 
literally deciding between their food and their medicine. In a Nation 
as great as ours, this is outrageous!
    As Senator Sarbanes has pointed out, the current programs and 
services that assist the elderly in meeting their needs are spread 
across numerous Federal agencies, making it difficult for seniors to 
understand and access needed services.
    For instance, the Congressionally established Seniors Commission, 
found in its 2002 report that the most striking characteristic of 
seniors' housing and health care in this country is the disconnection 
of one field from another.
    Senator Sarbanes is moving us toward a solution. His bill, S. 705, 
would create an executive level Interagency Council on Meeting the 
Housing and Service Needs of Seniors to better coordinate housing 
programs and related services so that senior citizens can age in place 
and access needed services.
    I support his efforts and look forward to the testimony of the 
witnesses. Thank you.
                               ----------
                 PREPARED STATEMENT OF ALPHONSO JACKSON
      Secretary, U.S. Department of Housing and Urban Development
                             June 16, 2005
    Chairman Shelby, Ranking Member Sarbanes, distinguished Members of 
the Committee, thank you for inviting the Department to testify on the 
``Meeting the Housing and Service Needs of Seniors Act of 2005,'' 
legislation intended to better coordinate housing programs and related 
services so that senior citizens can age in place and access needed 
services.
    I commend the Ranking Member for bringing this matter to the 
attention of the Committee.
    The Committee has asked the Department to discuss the changing 
senior population and its housing needs. This includes the ability of 
seniors to access programs and services that will allow them to age in 
place; the Federal role in better preparing to meet the needs of 
seniors, particularly as it relates to our partnerships with State and 
local governments and the private sector; and how an Interagency 
Council on Meeting the Housing and Service Needs of Seniors could 
assist and coordinate these efforts.
The Changing Senior Population and Its Housing Characteristics
    The senior population--those aged 65 and over--continues to grow. 
In the last decade, the elderly population has increased 10 percent. 
That is an impressive figure considering that those turning 65 in the 
last 10 years were born in the 1930's, and are the children of the 
Great Depression, which was a ``baby bust'' generation.
    The fact that the elderly population is growing at such a steady 
rate reflects both immigration and advances in the Nation's 
extraordinary health care system. We can be sure that the growth will 
accelerate. Over the next 5 years, we will have the children of the 
World War II generation turning 65, followed by the Baby Boom 
generation. With that on the horizon, we have every reason to believe 
that the number of seniors will double by the year 2030. By then, the 
Census Bureau estimates that 20 percent of Americans will be older than 
retirement age.
    The elderly population is geographically and culturally diverse, 
and this will present additional challenges in the coming years. For 
instance, in many minority communities, the culture is to have the 
grandparents live out a life of a dignity not in an institution, but 
rather surrounded by family and friends at home. With the rapid growth 
in the Nation's ethnic and minority communities, these dynamics will 
become more profound in the future.
    Clearly, this Nation will need to address the issue of senior 
housing from a different perspective than we have in the past.
How HUD Programs Support the Senior Population
    As the Committee knows, HUD has a long history of providing housing 
and delivering related services to one of the Nation's most vulnerable 
populations: The 
low- and very low-income elderly. The overall aging of the population 
and the corresponding need for elderly housing has prompted the 
Department to make changes in a number of our programs to meet this 
growing demand.
    Specifically, the Section 202 program provides an important 
resource to address the housing needs of the elderly. Along with Low 
Income Housing Tax Credits, the HOME program, and Section 8/PRAC 
Assistance, the Section 202 program contributes significant funding 
toward providing affordable housing units, many with supportive 
services. The elderly are well-served by HUD programs with 
representation that is, in general, proportionally higher than the 
elderly share of total eligible households. The Department has forged 
successful partnerships with States, localities, and other interested 
parties to provide additional resources to these projects. More than 
375,000 units have been funded since the inception of the Section 202 
program, which was established by the Housing Act of 1959.
    The program has undergone at least two significant changes since 
its inception. It began as a low-interest rate loan program without 
rental subsidy in 1959. In 1974, it became a loan program with project-
based Section 8 rental assistance. Finally, in 1991, Section 202 became 
a capital advance program with project rental assistance, and it 
remains so to this day. Under the current program, the capital advance 
is provided without interest and does not have to be paid back as long 
as the housing remains available for the intended population for 40 
years. Projects developed under the current program provide supportive 
services dependent on the needs of the residents.
    More than 6,000 new units have been funded under the Section 202 
program annually. These housing units are sponsored by nonprofit 
organizations, many of which are faith-based. These organizations have 
a history of serving the elderly and are committed to meeting the needs 
of this very vulnerable population for the 40-year term of the project 
and beyond.
    To make it easier to develop these projects, the Department has 
initiated grants to cover certain predevelopment costs that are 
incurred when constructing a Section 202 project. In the past, we found 
that many project sponsors have spent valuable time to cover these 
costs after they obtain a Section 202 commitment from the Department.
    The Administration is dedicated to the ongoing viability of the 
Section 202 program. We are committed to working with Congress, with 
the nonprofit organizations that sponsor these important projects, and 
with the elderly persons who are eligible to reside within them.
    The Department has experienced an increase in requests to use our 
multifamily mortgage insurance programs for elderly only housing. In 
addressing this need, the Department amended the MAP guide to include 
the Section 231 program; this should enable the Department to process 
Section 231 applications in about half the time it currently takes.
Aging in Place
    HUD's commitment to the Section 202 program goes beyond building 
housing for the elderly; we also want to ensure that they have the 
services they need in order to live comfortably. For that reason, the 
Department continues to encourage and fund assisted-living conversion 
and service coordinator grants to assist existing projects. These 
programs recognize that residents in our facilities are ``aging in 
place,'' a concept that HUD supports by encouraging independent living, 
and helping individuals stay in their homes--keeping them in their 
communities and close to family and friends.
    This is exactly what seniors tell us they want; 95 percent of those 
over the age of 75 say they want to live independently as long as 
possible.
    The Department has implemented the Assisted Living Conversion 
Program for 5 years. Under it, HUD provides the funds to convert 
existing affordable housing units into affordable assisted-living 
units. HUD requires the sponsor to provide evidence that they have 
commitments from other sources to fund the services required by 
residents. We believe that this is the only national program dedicated 
to the development of assisted-living facilities for very low-income 
households. The program has successfully produced over 2,100 units; 
based on our experience, however, we believe many more units could have 
been developed if the Federal response had been better coordinated.
    The Department commitment to providing the service component that 
is unique to senior housing is demonstrated by our continued support of 
the Service Coordinator program. It is so important to us that we have 
an indicator in our Annual Performance Plan to assess HUD's ability to 
increase by 10 percent the number of elderly households living in 
private assisted-housing developments served by a service coordinator. 
The Department continues to be committed to renewing expiring Section 8 
contracts and Project Rental Assistance Contracts. We understand this 
is a critical component in providing affordable housing to the elderly, 
and we attempt to ensure the timeliness of the payments.
    Another example of interagency coordination is our collaboration 
with the DHHS on the implementation of the new Medicare prescription 
drug coverage. We are joining forces with DHHS in educating people with 
Medicare--America's seniors and people with disabilities--that they are 
all eligible for this new prescription drug coverage and that there is 
extra help for those with low income. To accomplish this, DHUD will 
train our Rental Housing Integrity Improvement Program (RHIIP) help 
desk officers so they can include this new coverage in their work with 
the senior citizens residing in low-income housing. We will work 
collaboratively and leverage our resources to ensure that we educate 
America's seniors on this new benefit.
    This Administration has recognized the importance of addressing 
both the housing and servicing needs of the elderly, and has made these 
issues a priority. The Department agrees with the Committee that 
seniors require a wide array of housing options with access to 
services, including meals, transportation, health care, and assistance 
in daily activities. We also agree there are numerous Federal programs 
that assist seniors and their families in meeting these needs, and that 
these programs originate in many governmental agencies on the Federal, 
State, and local levels.
Federal Partnerships Assist in Meeting Seniors' Needs
    The Department has made efforts to coordinate to the greatest 
extent possible with other agencies on its programs. But there can 
always be improved communication and coordination among all the 
stakeholders to ensure that seniors have access to decent, safe, and 
sanitary housing and can obtain the necessary supportive services.
Examining the Legislation Before the Committee to Create an
Interagency Council, and How It Will Help to Meet the Housing
and Service Needs of Seniors
    It is our understanding that the legislation proposes an 
Interagency Council similar in structure to the Congressionally 
mandated Interagency Council on Homelessness. The Department is a 
member of the Interagency Council on Homelessness, and we have found it 
to be an invaluable tool in promoting a more cost-effective Federal 
response to homelessness. The proposed legislation is of significant 
interest to the Department. If we are indeed able to inspire effective 
cooperation among those Federal agencies that address the housing needs 
of seniors, the effort may yield long-term care savings that could pay 
for home-based alternatives. Such responses could, however, create 
demand for or increased spending in other programs. The comprehensive 
nature of interagency work on these issues should allow for 
consideration of all such issues.
    We believe the legislation before you today puts forth some good 
ideas. Thus, the Administration supports the concept of creating an 
Interagency Council to coordinate the Federal Government's efforts to 
address the unique needs of this continually evolving population. There 
are some technical aspects the Administration would like to work with 
Congress to address. We question whether it is necessary to exempt 
council staff from civil service provisions.
    In summary, the Administration and the Department are committed to 
working with Congress and our industry partners to address the growing 
need for affordable elderly housing and the necessary supportive 
services. The proposed legislation will provide an opportunity for us 
to work with other governmental agencies and stakeholders, and 
coordinate on a more comprehensive basis the resources required to 
address this growing need.
                    PREPARED STATEMENT NELDA BARNETT
                    Member, Board of Directors, AARP
                             June 16, 2005
    Good morning. Chairman Shelby, Ranking Member Sarbanes and Members 
of the Committee, thank you for this opportunity to testify today, on 
behalf of AARP, regarding the state of housing and housing-related 
services for American seniors. My name is Nelda Barnett. I am from 
Owensboro, KY, and I am a Member of AARP's Board of Directors. My 
remarks this morning will focus on the need to improve coordination 
among the various agencies, levels of government, and providers of 
housing and related support services that older Americans require in 
order to age with dignity in their own homes.
    It goes without saying that housing is a critical factor in 
determining our quality of life. During the 1990's, Americans, on 
average, improved the quality of their housing. But despite the 
progress of the 1990's, many low-income and moderate-income, older 
Americans continue to experience serious housing problems--and their 
numbers are growing. At the top of the list of problems are:

<bullet> Substandard conditions--there has been remarkable progress in 
    living conditions over the decades; however, the 2003 American 
    Housing Survey still indicates around 6 percent of older households 
    living in units with moderate or severe physical problems,
<bullet> a lack of affordability, and
<bullet> housing that is simply not appropriate for the changing needs 
    of older people.

    AARP's views regarding housing policy reflect the public commitment 
made over half a century ago by the Housing Act of 1949, that sets the 
goals of ``a decent home and a suitable environment'' for every family 
in America.
    Our policy recommendations are framed by our concern for:

<bullet> The affordability, accessibility, and appropriateness of 
    housing for older persons,
<bullet> The impact of the supply and demand for elderly housing and 
    supportive services on older persons, and
<bullet> How the design and maintenance of an older person's home can 
    impact an older person.

    AARP research consistently documents that as Americans pass through 
midlife--regardless of whether they own or rent their housing--they by-
and-large prefer to remain in their homes. This fact has been 
consistently documented by AARP research (Fixing to Stay, 2000; Beyond 
50.05, 2005). But the adaptability of housing to the processes of 
``aging in place'' presents difficult challenges for housing facilities 
that have often not been designed with these life changes in mind.
    Already, what we call our ``old-old'' population--those aged 85 and 
over--represents the fastest growing segment among older persons in our 
Nation. This group is disproportionately frail, and among the most 
vulnerable to excessive housing cost burdens. To be more specific, 
there were about 4.6 million Americans aged 85 and older in 2002. That 
number is projected to increase by more than 70 percent--to 
approximately 7.3 million--by 2020. Clearly, powerful demographic 
forces are at work. By 2030, the number of persons aged 65 and older 
will increase to 20 percent of the population and much of this growth 
will be driven by large increases in the number of persons aged 75 and 
older.
    Today, the availability of and access to supportive services varies 
widely. An important factor is the residential distribution patterns of 
older Americans. According to AARP's analysis of the 2003 American 
Housing Survey data, 74 percent of today's older households live 
outside central cities. They are dispersed across suburbs, small towns, 
and rural areas. Such dispersion presents formidable challenges to the 
efficient delivery of supportive services such as transportation, in-
home health care, home-delivered meals, home care, and other necessary 
services.
    Mr. Chairman, there is a deficit of affordable and appropriate 
housing for growing numbers of our older Americans. The housing and 
healthcare services shortfall of today will turn into the housing and 
healthcare services crisis of tomorrow if our policymakers fail to 
anticipate and act on the arrival of baby boomers that are of modest 
means.
    Given the dwindling Federal resources available to address these 
needs, the importance of improved coordination cannot be overstated. In 
this light, AARP supports enactment of S. 705, the ``Meeting the 
Housing and Service Needs of Seniors Act of 2005,'' is essential. As 
proposed, S. 705 would establish an Interagency Council to not only 
coordinate service delivery, but also monitor, evaluate, and recommend 
improvements in existing programs and services that assist seniors in 
meeting their housing and service needs at the Federal, State, and 
local level. And, the Council would collect and disseminate information 
about the needs of seniors along with these programs and services.
    AARP strongly supports enactment of S. 705. At the same time, we 
urge strengthened provisions to improve the extent to which Congress 
and the public can evaluate any of the housing and housing-related 
services information collected by the Interagency Council or that is 
otherwise required to be provided to the relevant Committees and the 
Council. We respectfully suggest that Congress may want to require that 
this information be made available over the Internet and in a format 
which facilitates comparative analysis and content searches. Improving 
the accessibility of this data would also help improve overall public 
confidence in these programs.
    Better coordination of housing programs is needed for a variety of 
reasons. In many instances, multiple program requirements and paperwork 
may become duplicative and burdensome. Resident eligibility 
requirements and means testing procedures may also be slightly 
different across programs. And, different methods of 
establishing rent levels and defining market areas for comparison are 
used by different programs. Last, different housing sponsors and 
agencies may have different waiting lists that can overlap for a 
population at need.
    The need for greater coordination is particularly apparent when 
trying to put together the housing, health, and social services 
programs at all levels of government that are critical to successfully 
serving persons with disabilities of all ages. Research has shown that 
Federal housing programs have very efficiently, if inadvertently, 
identified those who are at high risk of needing supportive services to 
remain independent. Analysis by AARP's Public Policy Institute of data 
from the 2002 American Communities Survey found that, compared to older 
homeowners, older renters in subsidized housing were: \1\
---------------------------------------------------------------------------
    \1\ Redfoot, D., Kochera, A., (2004). Journal of Housing for the 
Elderly, (Vol. 18 No. \3/4\, p. 137).

<bullet> Much older--half of the older renters in subsidized housing 
    were 75 or older compared to just over a third of older homeowners;
<bullet> Twice as likely as older homeowners to experience physical and 
    cognitive limitations that threaten their ability to live 
    independently;
<bullet> More than three times as likely as older homeowners to live 
    alone and have weak informal supports from family; and
<bullet> Roughly three times as likely as older homeowners to be at 
    high risk of needing Medicaid assistance due to low incomes and 
    high levels of disability.

    Better coordination of housing, health, and social services 
programs would serve a variety of purposes. Housing managers need 
reliable partners from health and social services agencies to serve the 
large and growing number of frail, older people in their buildings. 
Social services agencies could benefit from the greater efficiencies of 
serving concentrations of older people with supportive services needs. 
But the most compelling case for better coordination comes from the 
lives of the older people who need assistance--the older woman who is 
desperately clinging to independence in her apartment but has no one to 
help her bathe or just simply get out of the tub; the older man who is 
told he must move to a nursing home to get basic housekeeping services; 
or the older disabled resident in a nursing home who might have been 
able to leave if suitable housing and services were available.
    AARP actively participated in the Seniors Housing Commission whose 
2002 report called attention to many of these issues. We have supported 
efforts to expand the mission of housing programs and to provide the 
needed tools for serving older persons with disabilities through 
building features that accommodate service needs, staffing that 
includes trained service coordinators, and retrofitting dollars to 
convert buildings to assisted living. AARP is cochairing a process, 
along with the National Cooperative Bank Development Corporation, 
Fannie Mae, and the National Council of State Housing Agencies, to 
develop recommendations on how housing finance programs could be better 
structured to promote affordable assisted living. While these efforts 
have been important, they do not yet approach the scale of what is 
needed to serve the frail older people who need help. Only a concerted 
effort by all agencies at all levels of government can adequately 
address these needs.
    Mr. Chairman, if we continue to accept poor coordination among 
providers of housing and housing-related services, we will see an 
America with an even greater number of underhoused, underserved older 
citizens and a corresponding substantial increase in costly and 
premature institutionalization of older people. S. 705 is a worthy 
first step as we begin to address these problems. We urge its speedy 
enactment.
    Thank you again for the opportunity to testify. I would be happy to 
answer any questions you may have at this time.
                    PREPARED STATEMENT OF DANA OLSON
        Executive Director, Volunteers of America's Laurel Manor
              Senior Residence, Colorado Springs, Colorado
                             June 16, 2005
    Mr. Chairman, Members of the Committee, I am Dana Olson, Executive 
Director of Volunteers of America's Laurel Manor Senior Residence in 
Colorado Springs, Colorado and regional healthcare manager for 11 
Volunteers of America senior residences in Colorado, Nevada, and 
California. In that capacity, I also supervised the opening and initial 
operations of our senior residence in Senator Allard's hometown of Ft. 
Collins, Colorado. I have worked for 34 years in Long Term Care--about 
15 of those years as a director of nursing and the rest as a nursing 
home administrator. Ten years of my experience in Colorado was working 
in a facility with a high population of mentally ill people.
    Volunteers of America is one of the Nation's largest and most 
comprehensive charitable, nonprofit, spiritually based human service 
organizations. We provide services that are designed locally to address 
specific community needs. Our common areas of focus include caring for 
the elderly and people with disabilities by fostering their 
independence, promoting self-sufficiency for the homeless and for 
others overcoming personal crisis, and supporting troubled and at-risk 
children and youth. In 2004, Volunteers of America services across the 
country sshould empower over 135,000 seniors to maintain a healthy, 
engaged quality of life through senior centers and day programs, home 
repair and homemaker services, informational and referral services, 
Meals-on-Wheels and group meal programs, transportation, companion 
services, elder abuse protection, case management, and coordination of 
other community services.
    Also, Volunteers of America is one of the Nation's leading 
nonprofit providers of quality affordable housing for individuals and 
families in need, people with disabilities, and the elderly in over 225 
communities across the country, and is a growing provider of assisted 
living, skilled nursing and Alzheimer facilities for seniors with 
limited resources. As a leading provider of housing and services for 
the elderly, Volunteers of America is an active member of the 
Leadership Council of Aging Organizations, the American Association of 
Homes and Services for the Aging, the National Council on the Aging, 
the Interfaith Coalition for Long Term Care, and the Elderly Housing 
Coalition.
    As a spiritually based organization we draw on more than a century 
of experience and the reach of a nationwide movement that is:

<bullet> Bonded by a commitment to faith, human dignity, and social 
    justice;
<bullet> Dedicated to actively engaging volunteers in the community;
<bullet> Committed to the highest quality of service.

    On behalf of our organization, I want to express our sincere 
appreciation for your interest in S. 705, the Meeting the Housing and 
Service Needs of Seniors Act, and concern for the needed coordinated 
between housing, healthcare, and supportive services for the growing 
population of seniors in the United States.
    The problems we face as an nonprofit human service organization and 
as a Nation in attempting to provide more and better facilities to 
house and serve America's seniors, especially the frail elderly, will 
be severely compounded by the expected rapid growth in the Nation's 
aging population in the coming decades and the lack of adequate public 
policy and resources to meet that growth.
    In a recent study, ``The State of the Nation's Housing 2001,'' the 
Joint Center for Housing Studies of Harvard University reported that 
heads of households over the age of 75 ``are expected to increase by 
roughly 1.3 million over the decade.'' They go on to say, ``This growth 
implies rising demand for housing that allows seniors to age safely in 
place and for specialized facilities such as assisted living and 
continuing care communities.''
    The Harvard report further indicates that, of the nearly 5 million 
one-person households to be added over the next decade, ``almost one-
third will be over the age of 65.'' This growth is not going to take 
place in the distant future, it is going to be taking place between now 
and 2010, when the baby boomer generation begins to retire in ever 
increasing numbers.
    In their 2004 report, the Joint Center said the Nation's 35.6 
million seniors face a ``quadruple threat.'' First, many have 
inadequate incomes to pay for housing; second, increased healthcare 
needs compete with other basic needs; third, most live in single-family 
homes that require maintenance and are difficult for caregivers to 
reach because of their geographic dispersion; and fourth, ``many have 
physical limitations or cognitive impairments that must be addressed by 
in-home care or structural modifications. In the 2000 Census, for 
example, 9.5 million seniors reported a physical disability and 3.6 
million reported a mental disability.''
    All of this is corroborated by the U.S. Department of Housing and 
Urban Development anticipating that today's senior population will 
double in size by 2030, expanding at a rate of almost 3 percent a year 
to almost 70 million people by that time, with the fastest growing 
segment of that cohort being persons aged 85 and older. Commensurately, 
the Census Bureau estimates that 20 percent of the population in the 
United States will be beyond retirement age by 2030 compared with only 
about 13 percent today.
    Clearly, as a Nation we have a problem of extraordinary scale and 
urgency as the housing and social services programs and funding we have 
in place today will not keep pace with this situation. Therefore, it is 
so important that the programs we have in place--like the excellent 
Section 202 Elderly Housing Program--operate in an efficient and 
expeditious manner. But its effectiveness for the future can only be 
made complete by assuring the availability of coordinated healthcare 
and supportive services.
    Because of that need, Volunteers of America believes we are at a 
time in our history that calls for serious debate that leads to the 
creation of a national long term care policy that is inclusive of the 
continuum of services issues of affordable senior housing, adult day 
care, homecare, assisted living, and skilled nursing facilities. This 
is vitally important to persons who are frail and elderly, especially 
those who participate in federally assisted or subsidized housing, who 
are among the most vulnerable. As they grow older in residences 
designed for independent living, they are at high risk of being forced 
into institutional nursing home care, or alternatively having their 
needs unmet.
    Much of this problem is due to the fact that the delivery of 
services to many persons is fragmented because of multiple policymaking 
authorities and funding streams; conflicting regulations; and poorly 
coordinated, overlapping State and Federal Government agencies. This 
fragmentation is not only costly, it often times leads to serious gaps 
in providing what is needed. For instance: Providers of long-term 
housing finance typically to not understand the terminology or analytic 
framework of the health care community. Health care regulators are 
unaware of the requirements of housing finance. The need to get 
participation and approvals for transportation, social service, and 
other regulatory bodies further complicates the discussion. Housing 
sponsors often must spend inordinate amounts of time and energy as a 
go-between because different disciplines give different meanings to 
important words. Often terms like ``assisted living'' acquire precise 
regulatory meanings that differ from State to State.
    It is because of this existing fragmentation that passage of S. 
705, the Meeting the Housing and Service Needs of Seniors Act, is so 
important as a step in the right direction to better coordination of 
housing programs and related services so seniors can age in place and 
have access to needed services.
    Let me tell you a little about my experiences in Colorado. As an 
Administrator of a skilled, long-term care center, I am seeing older, 
more frail, acutely ill seniors coming to us for care and 
rehabilitation to allow them to return home or to a lesser level of 
care in the continuum. As the people we care for come to us much more 
acutely ill, and the regulations under which we operate become more and 
more stringent, the fragmented system is more difficult to work with. 
We never want to be in a position that limits the services we need to 
provide to give our residents the highest quality of service possible, 
but we need your help to do so.
    As the Regional Housing Manager of five 202 Senior Housing 
Complexes in Colorado, we have a waiting list of over 200 seniors. That 
means 200 seniors are out there in need of our services and we are 
unable to meet those needs at this time. This only reinforces the need 
for more available housing with services for our seniors. The best way 
to meet this need is to have adequate funding to build additional 
senior residences with a service coordinator in each facility. The 
coordinator would have the capability of assisting our seniors access 
the system to fill the need for food, medical care, and other 
supportive services. But even good service coordinators have difficulty 
unraveling the myriad rules, regulations, agency sources, and funding 
streams that are intended to serve senior citizens. Passing this 
legislation and establishing a Federal Interagency Council on Meeting 
the Housing and Service Needs of Seniors would provide a structure for 
Federal agencies to jointly review housing and service programs, more 
effectively coordinate Federal programs and services, and work with 
States to coordinate programs and services at the State and local 
level.
    Adult children of middle and lower incomes, whose parents face 
these housing and health care needs, are ill equipped both in terms of 
care management skills and financial capacity to meet all of the needs 
their parents face. Our Nation has evolved to a point where these 
elders cannot look entirely to their adult children for financial and 
care support, since most of our households have the adults working full 
time to meet their own financial obligations and the needs of their 
young children. Where once upon a time in our Nation, long-term care 
meant providing for aging adults in their adult children's homes, we 
now by necessity have our adult children working long days at jobs that 
leave little time for adult care. Somehow and in some way the solution 
to this senior housing and long-term care crisis must come from a 
comprehensive policy that cost-effectively integrates housing, 
healthcare, and supportive services for seniors into a reasonable 
approach that meets the needs and affordability of the individual and 
his/her family in partnership with State and national governments.
    Some individuals might think that committed and competent providers 
like Volunteers of America have access to sufficient resources to meet 
the growing national need for elderly housing, healthcare, and 
supportive services. Unfortunately, that is not the case, especially 
with respect to the growing needs of frail seniors who are not 
affluent. There has been a trend toward reduced funding for the 
development of new federally assisted housing for seniors, the 
devolution of Federal housing programs to State and local governments, 
short-term renewals and funding for Section 8 contracts, the potential 
loss of affordable housing units to market-rate housing through Mark To 
Market, and, more recently, cutbacks in Medicaid funding and barely 
level funding for the important Service Coordinator program.
    For the sake of our Nation and its deserving senior citizens we 
must find an efficient, well coordinated means of providing long-term 
care through integrated healthcare with supportive services and 
housing, and that process has to begin at the top. That is why 
Volunteers of America believes that the Meeting the Housing and Service 
Needs of Seniors Act must be passed as a bipartisan testimony to the 
worth of our older generations.
    We appreciate the opportunity to bring you our ideas and 
perspectives and want to assure all the Members of the Committee that 
Volunteers of America is strongly committed to helping resolve these 
issues before the growing demand for elderly housing and supportive 
services spirals out of control. We are confident that sound solutions 
can be found and implemented in a way that is fiscally responsible and 
fair to all parties.
    Thank you.
                               ----------
                 PREPARED STATEMENT OF STEPHEN PROCTOR
President and CEO, PHI Retirement and Senior Care Services, Camp Hill, 
                                   PA
                             June 16, 2005
    Good morning Mr. Chairman and distinguished Members of the 
Committee. I am Steve Proctor, President and CEO of Presbyterian Homes, 
Inc., headquartered in Camp Hill, PA, and am honored to have been asked 
to provide you with testimony today on behalf of Presbyterian Homes and 
PANPHA--Pennsylvania's trade association representing nonprofit senior 
services providers. The population we serve in Pennsylvania is among 
the Nation's oldest, and in many areas of the State, requires more care 
than average. We have 15 sites statewide. Some are located in the 
State's largest urban/suburban areas. Others are located in regions 
that are among its most rural.
    We provide the full continuum of care for Pennsylvanians in need of 
chronic care--seniors and, in some of our locations, younger residents 
with disabilities. Our world class staff--2,600 strong--provide housing 
and services to more than 3,000 residents statewide. We are extremely 
proud of our dedicated service and care providers without whom, 
providing the highest quality of care and services would not be 
possible.
    I will admit that when first told about the intent of S. 705 and 
asked to testify, I reacted with a degree of skepticism. Historically, 
proposals to initiate this type of council have been many--and 
solutions coming from them few. Then I read Senator Sarbanes' bill, and 
his comments during introduction of this piece of legislation. It is 
consistent with PANPHA's strategic initiative on ``Consumer Choice''--
that is, housing and services alignment driven by consumer need, not 
the wishes of often well-intentioned bureaucrats and funding agencies. 
We strive toward this goal because it is the how consumers wish to and 
deserve to receive their services.
    In short, this bill makes sense. The coordination proposed in S. 
705 is not only necessary--but it is also long overdue, and will 
provide real enhancements in the delivery of housing and services to 
the people we serve.
    As a provider of housing and services, I thought that my time 
before the distinguished Members of this Committee would be best spent 
discussing the daily challenges that the maze of statutory, regulatory, 
and funding requirements pose in 
providing housing and services for that resident.
    PHI is a sponsor of Stadium Place, a model for senior housing 
located on the site of Memorial Stadium in Baltimore. This site 
currently contains HUD housing Tax Credit housing for seniors, with 
market rate and homeownership developments to follow. It also shares 
the site with a full service YMCA. It was developed to provide seniors 
with limited incomes many of the same options available to more 
affluent seniors of continuing care retirement communities. A recent 
editorial in the Baltimore Sun identified Stadium Place as the right 
model for senior housing. More importantly, many of the residents of 
Stadium Place describe it as the best place they have ever lived. If 
you have not seen this project, I would encourage you to visit the 
site.
    The key to fully realizing the dream of Stadium Place and other 
similar senior housing projects is the delivery of supportive services 
in an environment that can best be described as fragmented. The 
combination of case management, coordination of existing services, and 
flexible service delivery systems will enable this group of seniors to 
live more healthy and active lives. The timely intervention of health 
and social services will ultimately save money by helping residents of 
Stadium Place to age in place.
    Aging in place is what people desire, if their needs can be met. 
PHI has a person in one of our senior housing projects that was 
admitted with her disabled husband in 1970. Her needs have changed--but 
her desire to remain in her ``home''--since 1970--has not. We provide 
her with the care and support services necessary in this setting, but 
it has become increasingly difficult to do so given the maze of 
regulatory requirements and prohibitions across programs and funding 
streams. Without better coordination among and across the agencies 
included on the proposed coordinating council in this bill--she may 
soon be forced to leave her ``home'' with us.
    There are many examples of the housing and service needs of seniors 
not matching up with inflexible regulations and program requirements. 
The following are two recent illustrations in Presbyterian Homes' 
experience.
    The first scenario was an 80+ year-old man who lived in the 
community. He was receiving funding for services through the Office of 
Aging's Medicaid waiver. He was receiving meals-on-wheels and was 
having someone come in to assist him on occasion. PHI staff was called 
by the Office on Aging to do an assessment on this man. When they got 
there the following day, they discovered that he had fallen a day or 
two before, but Aging did not have anyone to send out to see him, so 
PHI staff were the only ones to help him. They found garbage up to 
their shoulders with a path through the trailer. It was evident that 
the personal care services he needed had not been provided in quite a 
while. He was admitted to a PHI personal care facility.
    In this case, the funding and oversight that he received through 
the Medicaid waiver was obviously not enough to provide him with the 
services that he needed to stay in his home in a dignified manner. We 
frequently see families who are provided with the waiver money and then 
have to make the choice between food, utilities, medication, and 
assistance.
    The problem in this situation is that, while this man could no 
longer stay at home with the limited support systems available, when he 
was admitted to a PHI personal care facility, his funding COULDN'T 
follow him. He was not eligible for any waiver funds, he was a few 
dollars over the limit to receive the $30/day personal care home 
supplement which Pennsylvania pays, but he did not have nearly enough 
the pay for the cost of care in personal care. In addition, in the 
community, he was eligible for Medicaid health insurance (Access card), 
but once he was admitted to personal care, he was no longer eligible 
because the requirements were different. The only reason he was able to 
be cared for adequately was because we provided him with benevolent 
care.
    The second situation was an elderly woman with mental health issues 
(schizophrenia) who was evicted by a personal care home because she had 
extremely limited income. In her case, she was eventually assisted by 
an inpatient program. The irony of this situation is that had she been 
admitted to a group home, another ``community'' setting or her own 
home, she would have received funding for mental health services and 
transportation. If she would have been admitted to personal care, she 
would have lost that funding because it is considered a medical 
facility and therefore the personal care facility is responsible for 
those costs/services.
    In both of these situations, the funding follows the setting, not 
the person. The person's needs and income did not change, just where 
they happened to live.
    When placed in context by the challenges I just discussed as we 
provide housing and services for, the activities of the council 
proposed in S. 705 take on even greater importance. The timing could 
not be better for this effort. In Pennsylvania, the 65+ population is 
projected to grow by 195,981 between now and 2015--encompassing a full 
17 percent of Pennsylvania's population.
    You will hear many ``experts'' tell you we will not feel any impact 
of the ``Baby Boom'' until the mid-2020's--that we have ample time to 
project, plan, and coordinate housing and services. It is true that is 
when the bulk of the ``Baby Boomers'' will begin hitting ``care age'', 
but to say that we do not need solutions in place until then ignores 
the realities. In many States, including ours, the sheer volume of 
residents living past the age of 85 will fundamentally alter the need 
for coordinated housing and services. Pennsylvania's 85+ population 
will have more than doubled between 1990 and 2010, growing to 336,407 
persons--almost 3 percent of Pennsylvania's total population. They are 
the highest users of the long-term care continuum--and do not have the 
luxury of waiting until 2020 for a solution to their immediate care 
needs.
    In Pennsylvania we are feeling the pinch now in a rather difficult 
budget negotiation at the State level on Medicaid funding for 
facilities. One of the major causes of that battle, happening right now 
in many of your States as well, is a direct result of the fragmentation 
of the programs and funding for long-term care. The provisions in this 
bill that speak to developing best practices, identifying those 
barriers--statutory, regulatory, and fiscal--to providing seamless 
housing and services are our best hope to meet the needs of this 
growing population.
    Thank you again for the opportunity to provide this testimony. I 
speak for PHI, PANPHA, and our national association AAHSA in applauding 
your efforts in this bill. We look forward to help laying the 
groundwork for a delivery system that makes more sense for providers 
and consumers alike. I would be happy to answer any additional 
questions you have at this time.
                               ----------
             PREPARED STATEMENT OF WILLIAM T. SMITH, Ph.D.
                           Chair of the Board
    American Association of Homes and Services for the Aging (AAHSA)
                             June 16, 2005
    Chairman Shelby, Ranking Member Sarbanes, Members of the Committee, 
I would like to thank you for inviting me to appear before you today to 
discuss S. 705, Meeting the Housing and Services Needs of Seniors Act. 
I would like to talk to you about the real world experience of 
providers and the seniors we serve, as well as the opportunities that 
this bill presents for making service delivery and program 
administration less cumbersome and more responsive.
    My name is William Smith. I am Chair of the Board of the American 
Association of Homes and Services for the Aging (AAHSA). The members of 
the American Association of Homes and Services for the Aging serve two 
million people every day, in 5,600 facilities across the country, 
through mission-driven, not-for-profit organizations dedicated to 
providing the services people need, when they need them, in the place 
they call home.
    AAHSA members offer the continuum of aging services: Assisted 
living residences, continuing care retirement communities, nursing 
homes, home and community-based service programs, and senior housing. 
AAHSA's commitment is to create the future of aging services through 
quality that people can trust. It is this commitment that underlies our 
support of this legislation, its goals and increasing the effectiveness 
and collaboration among Federal programs that serve our seniors.
    In addition to my work with AAHSA, I serve as the President and CEO 
of Aging in America, a community-based organization that originated in 
1852 with a mission of providing housing for aged women, and has 
evolved into a full service organization employing over 550 staff that 
serves over 5,000 seniors annually throughout the Bronx, New York. I 
know first hand how complicated and difficult it can be to work with a 
patchwork of programs to create the range of housing and services 
necessary to care for seniors with varying degrees of frailty and need.
    In 1972, Aging in America developed a skilled nursing facility for 
386 residents. Later, we established a continuum of community-based 
services to undertake educational, research, and advocacy efforts 
designed to further enhance the lives of seniors in our community. In 
1978, Aging in America converted a 90,000 squarefoot high school into 
our social service agency, including a number of community-based 
activities, intergenerational programs, an Alzheimer's day care center, 
case management, victim assistance, and elder abuse counseling.
    When we opened our first senior center in 1979 we served 45 hot 
lunches and provided recreational programming. Since then we have added 
two off-site senior centers and four satellite programs providing 
recreation, education, information and 
referral, wellness programming and nutritional services to over 1,500 
older New Yorkers weekly. We deliver hundreds of meals daily through 
congregate lunches at our senior centers and satellite locations. 
Furthermore, in order to help clients navigate the maze of Federal, 
State, and local programs we have developed a comprehensive case 
management program that provides services for over 700 elderly New 
Yorkers, conducting in-home assessments, case management and 
authorization for the delivery of in-home personal care, housekeeping 
services, and home-delivered meals.
    Aging in America also offers transportation services and last year 
we provided nearly 300 seniors with 3,465 trips to medical and social 
service providers through our program. Our telephone reassurance 
program assisted 450 seniors over the last year. Our 17 bed temporary 
housing program provides respite, emergency housing, and permanent 
living accommodations for people over 60 in need of a semi-protective 
environment. We are also opening a 120-unit rental community named 
Hertlin House on Long Island, NY. This housing program is for 
independent seniors who may require services over time. This property 
will be targeted to seniors with incomes $25,000 to $30,000 annually.
    The Congressionally established Commission on Affordable Housing 
and Health Faculty Needs for Seniors in the 21st Century, comprised of 
an expert panel of 13 of aging service professionals, looked carefully 
at the demographics, existing programs, the current system of service 
delivery and prepared recommendations for a Congress on a necessary and 
thoughtful Federal aging policy. Senate Bill 705 is integral to that 
policy.
    The demographics compiled by the Commission are staggering and 
highlight the importance of leadership at the Federal level to 
coordinate programs and identify opportunities for improving programs 
and service. Today, seniors comprise 12.4 percent of our population. 
That is 35 million people. By 2030, that number will have doubled. 
Seventy million seniors--20 percent of our population--may be accessing 
Federal programs to help meet their housing and service needs. The 
demand will be unprecedented. We are faced with a monumental task and a 
remarkable opportunity. To delay working toward a solution will leave 
us all--governments, providers, and families--in a state of crisis, 
unprepared to meet the needs of our seniors. Such a scenario will 
inevitably require extra resources, while leaving more and more of our 
elderly citizens to fall through the cracks due to overwhelmed, dated, 
financially strapped, divergent programs.
    One of the Commission's primary recommendations was a call for the 
coordination of housing and health care among departments. Frequently 
it is during a time of crisis that seniors or their families are faced 
with, not one, but a maze of programs in order to get the necessary 
services and appropriate housing. Eighteen percent of seniors, 65 and 
older, almost 6 million people, who are not living in nursing homes 
have difficulty performing at least one activity of daily living 
(ADL's)--such as mobility, bathing, dressing, walking, eating, going to 
the bathroom, or one instrumental activity of daily living (IADLS)--
such as preparing meals, assistance with financial management, and 
taking medications.
    Stable, affordable housing settings are the cornerstone of service 
delivery. Home and community-based providers, such as Aging in America, 
serve seniors where they are. I cannot overstate the importance of 
bringing services to all housing settings, among all income levels. In 
2020, among those seniors that will need assistance with at least one 
ADL or IADL will be 5.8 million homeowners, 1.5 million unsubsidized 
renters and 595,000 with some form of rental assistance. Of those 
seniors that own their homes, 44 percent have incomes of less than 
$25,000 per year and a significant portion are facing excessive housing 
costs and have homes that are not accessible and that require capital 
repairs. In addition to family and informal support networks, these 
seniors rely heavily on Federal programs. They face a multitude of 
needs, with varying resources, and will be significantly helped by 
Federal agencies that work together.
    While the Federal and State governments did not set out to create a 
complicated, contradictory, sometimes duplicative system of programs 
and funding mechanisms for serving those that are the most in need, 
that is, unfortunately, what we have. Over several decades Congress has 
enacted various laws, establishing several programs, each with their 
own eligibility criteria, funding mechanism and regulations. All of 
these programs were created with the best intentions, to meet a real, 
critical need. They addressed insular problems, with little awareness 
or regard of other agencies and departments working with the same 
population.
    Today, over half of our senior population is over 75 years old. 
We--the housing and service providers and Congress--have some 
experience with how older, frail seniors utilize housing and services 
programs. We know that the elderly do not experience their different 
needs in isolation--rather they experience them in what is all too 
often an overwhelming crisis that leaves them with unmet or underserved 
housing, health, or service needs. Too often the result is premature, 
publicly funded, 
costly institutionalization. With a comprehensive, coordinated system 
of Federal programs these seniors could be served in the most efficient 
manner, with programs based on need and not driven by outdated delivery 
mechanisms.
    The Members of Congress are essentially problem solvers and so you 
must be thinking what we in the field are thinking--knowing what we 
know about existing programs, current problems, growing need, and 
diminishing resources--there has to be a better way to make sure that 
seniors can get the housing and services that they need. Senate Bill 
705 is a significant step in that direction. This landmark legislation 
is the necessary next step to the Commission recommendation of 
coordinating programs by starting with a ``common vocabulary, common 
age for eligibility, common definition of eligible populations, and 
standards for programs.'' Most importantly it will make coordination a 
Federal priority and give agencies an opportunity to identify barriers 
and weaknesses and refine programs to make sure that housing and 
service programs work together. Senate Bill 705 establishes the perfect 
mechanism by which Federal programs can be streamlined with Federal 
policy objectives in mind.
    Across the country there have been State efforts to coordinate 
programs with some success. However, it is clear that the Federal 
dictates that govern the programs still need work. Successes at the 
State level are limited because the authority to change, modify, update 
regulations exists here in DC at the headquarters for HUD, CMS, VA, 
Labor, Transportation, and others. Senate bill 705 will guarantee that 
the Secretaries, or their designees, address and examine their programs 
in a new light, with common goals of coordination, efficiency, and 
service.
    Chairman Shelby, Members of the Committee, I want to thank you for 
your time this morning. I would like to thank Senator Sarbanes for 
introducing legislation to take this first step in preparing for the 
dramatic increase in the number of seniors that we will see win the 
next two to three decades. As the head of an organization providing a 
multitude of services for the elderly, I can assure you this 
legislation is sorely needed to help our seniors, their families, 
caregivers, and providers in making sure that departments work 
collaboratively and purposefully toward a federally integrated system 
of housing and services.
                               ----------
                   PREPARED STATEMENT OF TERRY ALLTON
     Vice President of Support Services, National Church Residences
                             June 16, 2005
    Good Morning Chairman Shelby, Ranking Member Sarbanes, and Members 
of the Committee. My name is Terry Allton and I am the Vice President 
of Support Services at National Church Residences, a nonprofit housing, 
services, and healthcare provider, based in Columbus, Ohio. National 
Church Residences has been dedicated to providing quality housing and 
supportive services at affordable prices to low and moderate-income 
seniors since 1961. NCR has over 225 communities throughout the United 
States and Puerto Rico, housing more than 15,000 low-income elderly, 
families and persons with disabilities. As a member of the aging and 
not-for-profit community we feel that it is our responsibility to share 
our experiences and input in the formation of public policy affecting 
those that we serve. I am excited to be here to talk to you about 
housing, supportive services and the need for Senate Bill 705.
    National Church Residence's Department of Support Services is 
nationally recognized as a leader in the housing industry and our 
Quality Assurance program has won national awards as the most 
comprehensive program of its kind in the country. Our belief in the 
benefits of community-based services and supportive housing is 
demonstrated by our commitment to attempt to place service coordinators 
in 100 percent of our facilities. In the early 1990's, Congress enacted 
the Cranston-Gonzalez Act which authorized the service coordinator 
program. There have been appropriations since 1991 through HUD. This 
launched a profession with the sole purpose of addressing quality of 
life issues for the elderly offering possible options to age in place.
    Our goal is to link residents with services that will allow them to 
remain independent, in their own homes and avoid premature 
institutionalization. We use a variety of funding sources to pay for 
service coordination, including HUD funding and private grants. The 
primary function of a service coordinator is to work with service 
delivery systems, provide resource information, identify programs, and 
assist seniors through the labyrinth of regulations attributable to a 
multitude of government agencies. Our elderly residents typically do 
not know who supplies which services or that some services even exist.
    National Church Residences is a founding organization of the 
American Association of Service Coordinators (AASC), a national, 
nonprofit organization representing more than 1,500 professional 
service coordinators who serve more than 400,000 low-income older 
persons and other special populations living in federally assisted and 
public housing facilities nationwide. Like others on this panel, NCR is 
an active member of AAHSA and its State affiliate, the Association of 
Ohio Philanthropic Homes, Housing and Services for the Aging (AOPHA). I 
am also here representing AASC as the current Chair of their Board of 
Directors. AASC has long urged that housing, health care, and other 
Federal support programs serving the elderly join together to better 
focus Federal policy and regulatory efforts, in conjunction with States 
and communities. Senate Bill 705 will do just that.
    Before I talk about our service coordinator program, I would like 
to talk to about NCR's commitment to the preservation of affordable 
housing and serving residents as they age in place. NCR has long 
advocated for Congress to recognize the importance of preserving 
existing affordable housing and helping residents at risk of losing 
their housing as providers ``opt-out'' of HUD programs and sell or 
convert their properties to market rate. We are losing more senior 
housing than we are building. To date, more than 15,000 units of 
federally assisted senior units have been converted to market rents. 
According to GAO 20 of the 41 older Section 202 properties that will 
reach the end of their mortgage commitments by 2013, do not have rental 
assistance. This means that those seniors will be in a precarious 
position to meet their housing and service needs at a time when 
Federal, State, and local communities will have experienced several 
years of tight budgets and housing and services are so fragmented.
    Housing and services go hand-in-hand for seniors aging in place. 
One without the other spells disaster for residents as they become 
frailer, with limited options and few resources. Service coordinators 
serve as a lifeline for seniors in all manner of housing settings and 
have become increasingly important part of our older senior housing 
communities, where people have lived for over 20 years, aging in place. 
For individual residents, service coordinators do on the local level, 
or at best try to do what this legislation would do at the Federal 
level by coordinating, what is frequently referred to as the ``crazy 
quilt'' of health, housing, and service programs utilized by seniors.
    Service coordinators identify resident needs, work within the 
community to locate resources, provide limited case management, and 
organize health and wellness programs. Service coordinators also 
arrange homemaker services, transportation, and meals assistance. They 
offer one-on-one help for residents by providing intensive assistance 
with entitlement and benefit programs, insurance, Medicare, and 
Medicaid. Service coordinators act as a broker for services that are 
difficult to obtain through public resources and assist residents in 
securing the help that they need to live safely and independently 
through community agencies. Their role not only enhances quality of 
life issues faced by elders and their families, but may also influence 
the cost of caring for elders by keeping them in noninstitutional care 
longer.
    The first stage of providing a continuum of housing and service 
choices for the elderly is in-home supportive services. Individuals 
with ample resources, many times, have easier access and a greater 
variety of choices in how and from whom services are acquired. Those 
living on a fixed income are more reliant on publicly funded services, 
governed by Federal departments and regulations that are frequently 
overburdened, financially restrictive, and severely limited, and often 
unable to meet the demands placed on the existing system. In addition, 
navigating through a system of segmented service providers and benefits 
is often difficult for older persons and their families. Service 
coordinators are the interagency council in action. Their lives and 
jobs will be made a lot easier by Senate Bill 705--not to mention what 
it will mean to seniors and family caregivers who may be unfamiliar 
with the aging services field.
    NCR's Support Services Division has gone to great lengths to 
quantify the benefits of service coordinators. We continually monitor 
programs, offer training and track outcomes. We produce tools, such as 
a monthly report, a semi-annual report, and resident and manager 
surveys. NCR provides quality assurance to service coordinators working 
at 249 communities providing services to approximately 21,875 
residents. Each service coordinator serves an average 87.9 residents. 
Over 28 percent of the residents are 80 years of age or older and over 
38 percent are considered ``frail'' or ``at-risk'', meaning they need 
assistance with 1-3 or more activities of daily living (ADL's) per day. 
A recent study performed by NCR found that service coordinator time is 
allocated accordingly:

<bullet> Advocacy to service agencies, management, and vendors on 
    behalf of the residents: 16 percent;
<bullet> Helping residents with Benefits and Entitlements: 13.7 
    percent;
<bullet> Case management: 9.5 percent;
<bullet> Monitoring services: 8.6 percent;
<bullet> Referrals to Health Care Services: 6.4 percent;
<bullet> Conducting Assessments: 5.5 percent.

    It is a testament to the benefit of service coordinators in housing 
settings that only 3.2 percent of their time is spent on crisis 
intervention.
    In addition to navigating services, service coordinators help 
elderly residents take advantage of cost saving program opportunities, 
such as prescription drug discounts, phone bills, utility bills, 
supplemental insurance, medical equipment, and food. Seventy percent 
(70 percent) of our residents received two or more interventions by our 
service coordinators that resulted in cost savings of an average 
$2,944.40 per year per resident. Imagine how difficult it is for a 
senior living alone without access to a service coordinator.
    Service coordinators also provide a cost saving benefit to our 
subsidized housing communities, by preventing unnecessary vacancies. 
The average cost for a vacancy in one of NCR's facilities is $1,732. 
Service coordinators help residents avoid potential eviction, undesired 
move-outs, and unnecessary placement at a higher, more costly level of 
care. In one study, we were able to establish that service coordinators 
in NCR facilities saved the properties an average of $2,393 per 
property over a 4-month period by making it possible for residents to 
remain in their homes, aging in place. One study shows that housing 
with home health care services costs approximately $60.00/day, while 
one day in assisted living costs $100/day, and a day in a skilled care 
facility costs $180/day. The cost-savings of in-home supportive 
services is staggering.
    A preventative, expansive, affordable range of community-based 
services is essential to making our communities, our staffs, and our 
residents successful, but more can be done. The types of programs that 
our seniors rely on often come from Federal departments and agencies or 
state programs that are federally funded. From Transportation to HUD to 
CMS, we work with a staggering number of regulations and eligibility 
requirements. Under Senator Sarbanes' bill, the primary people 
responsible for all of these programs will be brought to the table. 
This bill will give leaders a chance to look at these programs with a 
bird's eye view in the context of senior housing, services, and long-
term care. We in the industry have a number of ideas on how to make 
programs work better together. It would be far more beneficial to bring 
these issues to those that set and implement the policies that govern 
the programs.
    Too often we spend time going from agency to agency and writing 
various headquarters offices, trying to make programs work together in 
order to meet our resident's needs. We have made some headway and the 
State and local agencies are eager to help, but the simple fact is that 
it is unnecessarily time consuming for us, and for the agency and 
department staff. I urge you to consider the benefits to establishing 
an interagency council and to support Senate Bill 705. Federal, State, 
and local governments are struggling with soaring costs related to 
caring for our seniors. This legislation will give the Federal 
Government and our policymakers an opportunity to create a workable 
solution to cost effective, noninstitutionalized long-term care--
housing and services.
    Chairman Shelby, Ranking Member Sarbanes, Members of the Committee, 
thank you for your time and consideration of this important piece of 
legislation. The Meeting the Housing and Services Needs Act is the 
first step in maximizing program effectiveness, addressing the need for 
Federal coordination of programs and most importantly, serving seniors 
where they are--in their homes. I urge you to act on this legislation 
before we face a system that is ill-prepared to serve the numbers of 
seniors in the future. Our Federal programs serve a very real need, a 
need that will continue to grow. Unfortunately, sometimes it seems that 
change takes a while with complicated programs. We cannot afford to 
wait. The commitment of the departments and agencies at the Federal 
level can make this work. Again, on behalf of NCR, our staff and 
residents, thank you for your time and work on important issue.
                  PREPARED STATEMENT OF STEVE PROTULIS
                 Executive Director and Vice President
     Elderly Housing Development and Operations Corporation (EHDOC)
                             June 16, 2005
    Mr. Chairman, and Members of the Senate Committee on Banking, 
Housing, and Urban Affairs, my name is Steve Protulis, Executive 
Director of the Elderly Housing Development and Operations Corporation 
(EHDOC), a nonprofit development and management corporation based in 
Ft. Lauderdale, FL devoted to providing the best suitable and 
affordable housing for low and moderate income older persons. EHDOC 
currently has 42 senior housing facilities in 14 States, DC, and Puerto 
Rico for approximately 4,000 senior citizens; and has three additional 
properties under development. Most of our senior housing facilities are 
financed through the Section 202 program.
    First of all, I would like to express my appreciation to you, 
Senator Shelby, for your leadership in convening this very timely 
hearing on S. 705, legislation to establish the Interagency Council on 
Meeting the Housing and Service Needs of Seniors. I am pleased that my 
State's Senator, Mel Martinez is a Member of this Committee. Not only 
because he is a compassionate person with practical housing 
experiences, but he also has a unique perspective of the need for 
interagency collaboration as the former Secretary of HUD.
    I would like to start my testimony by telling a story of Marie, a 
frail, older resident who had lived for 14 years in one of our four 
senior housing communities in southern Florida. She called our service 
coordinator crying because she had no other family members or friends 
to help her and she did not want to go to a nursing home as her doctor 
indicated that she would. Her level of frailty and income qualified her 
for Medicaid. The service coordinator linked her with a community 
agency that specializes in a comprehensive health care program for 
frail elderly--a Program of All-Inclusive Care for the Elderly (PACE). 
As a result of the collaboration between the senior housing and the 
Florida PACE Centers, the resident who was previously at-risk of going 
to a nursing home, could continue to live in our senior housing 
facility, attend the PACE healthcare center and receive needed 
assistance 7 days a week, which achieved Marie's choice to remain in 
her home with dignity and independence.
    This is just one example of the mutual benefits of collaboration 
between housing, services, and health care that enables an older person 
to achieve their choice to age in place, while at the same time saving 
public funds. There are countless other stories in EHDOC's properties, 
and the other organizations testifying today, of frail older persons 
struggling to age in place. My testimony today will focus on some of 
EHDOC's experiences as well as my observations as one of the 14 members 
of the Congressional appointed Seniors Commission on Affordable Housing 
and Health Facility Needs for Seniors in the 21st Century. The final 
report, ``A Quiet Crisis in America'', was presented to this Committee 
on June 27, 2002.
Seniors Commission
    I would like to publicly thank Senator Paul Sarbanes for the honor 
of being his appointee to the Seniors Commission and for his leadership 
with introducing S. 705, Meeting the Housing and Service Needs of 
Seniors Act As may be evident by the attendance of many older residents 
from Council House, an EHDOC community of 160 units in nearby Marlow 
Heights, Maryland, Senator Sarbanes has earned much respect and 
admiration for being a champion for senior citizens.
    As we discuss today the issues outlined in Senator Shelby's 
invitation letter regarding housing and service needs of seniors, and 
how these programs can be better coordinated, we must always be mindful 
of the faces behind the data, and involve older persons in our 
deliberations. One of the most gratifying experiences of the Seniors 
Commission was the opportunity to hear compelling testimony directly 
from senior citizens at each of our field hearings held around the 
country.
    The one consistent message that was repeatedly heard by the Seniors 
Commission from seniors, as well as from policymakers and other 
professional experts, was the desire of seniors to age in place. It is 
appropriate that one of the key objectives of the proposed Interagency 
Council on Meeting the Housing and Service Needs of Seniors is to 
facilitate the aging in place of seniors, as well as to improve 
coordination between housing and services.
    The findings and demographic information highlighted in Section 2 
of the S. 705, and the fact sheet provided for these hearings provide 
forceful data to justify the need to establish the Interagency Council. 
These findings identified in the bill, are reinforced by the extensive 
research and documentation by the Seniors Commission, including a 
thorough analysis of projected housing and services needs provided in 
the appendix. The Commission reported that 53 million Americans (one in 
six) will be aged 65 and older in 2020, which will represent 20 percent 
of the population (compared to 12.4 percent when the report was issued 
in 2002). That significant increase and the need for Americans to 
prepare for the changing demographics represent a ``Quiet Crisis is 
America'' which is the apt title of the final report from the Senior 
Commission.
    A substantial number of older residents in federally assisted 
housing are women living alone with some physical or cognitive 
limitations. The Seniors Commission reported that about a third of 
residents over the age of 65 require some assistance. For those aged 75 
and older, this rose to 36 percent and 11 percent with mental 
disability that seriously interfered with their everyday activities. 
However, for the lowest income of the group, with income under 150 
percent of poverty level, they are especially vulnerable with almost 
214,000 or over 42 percent having at least one limitation with 
activities of daily living. The average age nationally of low-income 
residents of Section 202 elderly housing in 1999 was 75.
    While these national figures may be helpful for public policy, for 
operations it is vital that the data be considered at the community and 
facility level where the data is far more meaningful. Nationally, the 
average age of residents in EHDOC facilities is 79 and increasing 
annually; we have facilities where the average age is 80 (Florida). The 
desire of older persons to age in place is certainly reflective of the 
number of years that they remain in federally assisted housing. Many of 
EHDOC residents have lived at properties in many States including 
Florida, Illinois, and Pennsylvania for over 20 years--from the time 
the senior housing facility was first opened. A few months ago, one of 
our residents in Ohio celebrated her 101st birthday--centurions are 
becoming more frequent. She has a regular exercise routine and 
participates in the weekly exercise class offered at our property--that 
is aging in place. At one of our properties in New Hampshire, 50 
percent of the residents are over the age of 85, including one 98 years 
of age.
    As documented by the Seniors Commission, the need for supportive 
services is reflected by the number of persons who are considered frail 
or at risk. In Florida, for example, of our 620 units in four 
facilities, 37 percent of the residents are considered frail and 41 
percent are at risk. This translates to approximately 78 percent of the 
residents needing supportive services. In Pennsylvania, of the 348 
units in five buildings, 22 percent of residents are rated as frail and 
29 percent at risk; or over half of all residents needing services to 
maintain their independent living.
    When considering the types of services that older residents of 
federally assisted senior housing need, (based on a survey of a small 
sample of facilities in Florida), the Seniors Commission reported that 
two of the top three most important services related to transportation. 
The need to collaborate between senior housing and transportation might 
be of interest to the Housing and Transportation Subcommittee. Seniors 
stated that transportation to and from doctor's office (15 percent), 
and for grocery shopping (14 percent) was a priority need. When asked 
if they had a problem getting affordable transportation to places (not 
within walking distance), over 25 percent of the elderly indicated that 
they had a problem always or most of the time and 15 percent some of 
the time. The number one service need reported was physical 
modifications to the facility or their apartment, that is, hand-rails, 
grab-bars in bathrooms. Over a third reported that they had no person 
that they could rely upon for their health and disability-related 
problems, and 16 percent said they only had someone they could rely 
upon occasionally.
    Dr. Stephen Golant, University of Florida, a senior issues 
specialist who conducted for the Seniors Commission an extensive 
research paper on demographics and future housing needs of older 
americans (included in the Appendix of the final report), is presenting 
a paper to the Commonwealth Fund and AcademyHealth Forum next month. As 
he will be reporting on emerging relationships between senior housing 
and long-term care, when informal care giving assistance becomes 
inadequate, lower-income, older adults must turn to public sector 
solutions. (This is when), they are likely to confront administrative 
or organizational barriers that make it difficult for them to bundle 
together the benefits and services they need to age in place 
successfully.
    Dr. Golant's report also advises that not having access or 
knowledge of services, lack of funds, and the time and inconvenience it 
takes to secure services are important drawbacks in getting seniors the 
help they need. In addition, the qualifications/eligibility may be 
different for each service. The paperwork alone can deter a person from 
seeking the services they need.
    Clearly, as often testified before the Seniors Commission, there 
are a number of existing barriers that are making it very difficult for 
some older persons, their caregivers, professional staff, and others to 
assist older residents to access a range of supportive services. The 
Seniors Commission identified a number of major barriers to linking 
housing and services, including the traditional distinct roles of 
various Federal departments, such as HUD, focusing on a safe, decent, 
and affordable place to live, that is, to provide a roof over seniors 
heads--but not to provide the types of services essential for enabling 
aging in place and/or quality of life for older residents.
    Some of these barriers are the types of actions that can be 
addressed by the proposed Interagency Council on Housing and Service 
Needs of Seniors. For example, the Commission identified a number of 
administrative and organizational barriers caused by different 
government programs, levels of government, different types of providers 
(public, private, or nonprofit), different funding streams. As 
characterized in the final report, . . . ``housing and service needs of 
seniors traditionally have been addressed in different `worlds' that 
often fail to recognize or communicate with each other . . . while 
policymakers have struggled to be to be responsive to the needs of 
seniors, the very structure of Congressional Committee and Federal 
Agencies often makes it difficult to address complex needs in a 
comprehensive and coordinated fashion. For example: Medical needs of 
seniors are addressed by Medicare and Medicaid; social services needs 
are address by Medicaid, the OAA (Older Americans Act), and other block 
grant programs; housing programs are administered by HUD and the 
Department of Agriculture's Rural Housing Services (RHS); and 
transportation programs are administered by the U.S. Department of 
Transportation.''
Future of the Interagency Council on Housing and Service Needs for
Seniors
    I believe that the various functions identified in Section 5 of S. 
705 for the Interagency Council will significantly contribute to 
forging better communication and collaboration between the various 
Federal agencies (as identified in Section 4c of the bill) involved 
with housing, services and health care, as well as between the Federal 
Government with State and local governments and with the private 
sector. For example, the Council could examine ways to promote 
increased collaboration by making more compatible the different income 
eligibility to participate in some HUD and HHS programs. HUD and USDA/
RHS could collaborate with the Department of Health and Human Services/
Center for Medicare and Medicaid Services (HHS/CMS) in working with 
States and local communities to ensure suitable and affordable housing 
is available in communities seeking to develop Home and Community-Based 
Services either in response to the Supreme Court, Olmstead Decision 
requiring community options for persons with disabilities or as part of 
the Administration's New Freedom Initiative. The Interagency Council 
could facilitate a means to implement the various recommendations of 
the Seniors Commission: To provide a means to streamline 
counterproductive regulations; to compile and exchange data, research, 
and technologies; or a ``one-stop-shop'' for best practices or to 
foster the development of innovative or cross-cutting models. As the 
Commission reported, ``the Nation can no longer afford the inefficiency 
of the current disconnect between housing and health services systems 
for seniors.'' The time has come for coordination among Federal, State 
, and local agencies and administrators. The establishment of the 
Interagency Council could help improve efficiency among the various 
Federal agencies within the existing structure.
    While some could argue that the benefit of the Interagency Council 
is saving costs--and perhaps even could be self-financed by recycling 
cost savings, I believe that the focus of this effort should not be 
saving money, but rather on saving lives. Remember my first story of 
Marie, the frail, older lady in Florida who was able to remain in her 
home through effective collaboration between the housing provider and 
the health care provider? The Interagency Council could help promote 
the replication of models like this as a means to save the life of 
another older person in another facility (or own home). The Program for 
All-Inclusive Care for the Elderly (PACE) program is administered by 
States and funded through Medicaid and Medicare for a wide range of 
health care and services, but does not have HHS funds for the physical 
structure to house a PACE center. Some federally assisted and public 
housing may have a number of frail residents who could benefit from the 
PACE program, but do not have HUD funds nor desire to operate the PACE 
program. However, if there should be surplus space in or adjacent to 
the housing facility to enable the colocation of a PACE center, it is a 
win-win situation for the frail elderly, the housing provider, the PACE 
provider and taxpayers. The Interagency Council could help expedite the 
development of both the PACE and Center space as well as transportation 
through uses of more flexibility with existing funds.
Service Coordinators
    One of the key recommendations of the Seniors Commission for 
forging increased collaboration between senior housing and services is 
the staffing of service coordinators. I am pleased that Terry Allton is 
here to testify on behalf of the American Association of Service 
Coordinators (AASC) where I am honored to serve on the Board. I am 
pleased that EHDOC has a service coordinator for nearly all of our 42 
properties. In our website: www.ehdoc.org we include a copy of our 
Newsletter, New Dimensions, that includes a Service Coordinator Page 
with quarterly examples of 
exemplary efforts of service coordinators assisting seniors to age in 
place. The following are two examples where our service coordinators 
have not only assisted vulnerable frail elderly to remain in their home 
as they desired, but also saved public funds.
    Council House, Marlow Heights, MD--One of our residents, Edna, 
stopped socializing as much as she used to. She had such severe leg 
pain that even using a walker was not possible. She seemed to be 
slipping into a depression because she was confined to her apartment. 
The Service Coordinator suggested that we get her a wheelchair, but she 
said that she would not be able to push herself around because she is 
too weak in her upper body.
    The Service Coordinator told her about another option that could 
work. We contacted a company that has motorized, compact scooters. We 
ordered one and Medicare paid for it. Edna now ``drives'' herself 
everywhere. She is much happier now that she can again go outside, come 
down to bingo, come down to lunch where she plays cards with friends, 
attend religious services, etc. Her fear was that she would become so 
immobilized that she would have to move to a nursing home.
    By keeping this resident mobile so she could live at home, we saved 
Medicare over $10,000 the State of Maryland nearly $40,000 plus 
additional savings with other Government programs and significantly 
reduced costs to the low-income, older person. These estimates are 
based on the average cost of nursing homes in Maryland over the 2 years 
that Edna has been able to continue to live at Council House since 
getting the scooter.
    Mildred and Claude Pepper Towers, Miami, FL--Our service 
coordinator has helped link our frail residents into the State's 
Channeling program to enable them to continue to live independently in 
their apartments. For example, the program has helped one of our 
resident's, Fannie, by providing a visiting nurse and home health aide 
to conduct daily cleaning activities, medications ands home delivered 
meals, thus saving the government tens of thousands in the 2 years that 
she has been in the program. Before Fannie was linked with this 
program, she thought she would have to go into a nursing home.
    Despite the ample documentation of the cost effectiveness of 
service coordinators in enabling frail elderly to access community 
services, it may require an investment in one department (HUD) to save 
money in another (HHS). Unfortunately, funding for service coordinators 
in Federally assisted senior housing, as well as with public housing, 
is woefully inadequate to ensure that facilities providing affordable 
housing for low and moderate income elderly have sufficient resources 
to include service coordinators as part of the operating budget of 
federally assisted and public housing. The Interagency Council could 
facilitate actions that both agencies would find mutually beneficial, 
including interagency training, access to timely information, 
technologies, or best practices.
Private Sector Collaboration
    One of the issues that Chairman Shelby asked us to address was the 
role of the private sector with housing and services needs of seniors. 
Rightfully so, considering that senior housing and services is big 
business: Jobs, consumer products, taxes, etc. Senior housing and 
services has a symbiotic partnership with the private sector. The 
Seniors Commission examined a number of issues that need the active 
involvement of the private sector with housing and services, including 
increased role for Government Sponsored Enterprises (Fannie Mae, 
Freddie Mac), bonds, and various tax incentives. With the present 
rapidly escalating housing costs and tight local markets, many 
federally funded facilities that could be used for affordable senior 
housing are being lost through conversions to condos.
    Given the demographics, the limited Federal funding for Section 202 
and other affordable senior housing, and long waiting list for most 
facilities (nationwide EHDOC has over 4,200 seniors waiting for 
affordable housing--more than those who currently resident in our 
facilities), we need to create additional means to finance the 
development and preservation of affordable senior housing. Some 
existing buildings could be acquired through public-private 
partnership, rehabilitated, add enhanced services, and reposition in 
the community as mixed-financed, mixed-use, and mixed-income senior 
housing, as part of a community long-term care strategy. We clearly 
need effective interagency collaboration with the GSE's, HUD, IRS, 
State housing finance agencies, banks, State and local government, and 
the private sector.
    EHDOC could not function without partnering with the private 
sector. For example, we have been successful in work with Homeward 
Bound to provide 100 hours of free personal care aids to residents in 
New York; Verizon Corporation, BellSouth, and SBC for donations in 
excess of $100,000 in computers for seniors to be connected to today's 
technology, and the Pequot Indians Prescription Drug Program which 
provides prescription medication to EHDOC seniors at the lowest 
possible costs.
    In addition to the efforts of our service coordinators brokering 
linkages between senior residents with a myriad of public and private 
community agencies, EHDOC has established a program to promote 
collaboration between our residents, our facility, and the local 
community. Our Community Action Program (CAP) is designed to encourage 
active participation between seniors and their community. We promote 
volunteers both by our resident's involvement within the community, as 
well as by community organizations and individuals to assist our 
residents. Again, our website provides an on-gong listing of local 
programs in our newsletter. One of the recent examples of CAP which we 
take much pride, was action taken by our residents in response to the 
devastation caused by the Tsunami. Our low-income, older residents 
conducted bake sales and other fund raising activities (some with local 
private sector matches), and were able to raise and donate $25,000 to 
survivors. Not only would an Interagency Council be helpful with our 
local, State, or national efforts by exchanging timely information 
nationwide, but now also worldwide. I will be discussing our CAP 
program in Norway next week as part of the International Association of 
Homes and Services for the Aging (IAHSA).
    One final comment on the private sector and S. 705 to establish the 
Interagency Council on Meeting the Housing and Service Needs of 
Seniors, I would like to suggest that we borrow a phrase by the Nike 
Corporation . . . ``Just Do It!'' I believe that the establishment of 
the Interagency Council is the next step building upon the wealth of 
testimonies, research, data, best practices, and countless hours of 
deliberations of the Seniors Commission. It was the wisdom of the 
Congress in establishing the Seniors Commission to give us an 18-months 
deadline. I believe that the final report provides ample justification 
for the need to increase interagency and public and private 
collaboration in meeting the housing and services needs of rapidly 
increasing elderly population. While it was challenging, we met the 
deadline, and delivered our final report and recommendations to this 
Committee at hearings held on June 27, 2002 before Senator Sarbanes and 
the Banking, Housing, and Urban Affairs Committee. I am pleased that 
the Committee arranged for the final report, as well as the proceeding 
of the hearings and related actions to be available at 
www.seniorscommission.gov. I would like to request that the Committee 
take additional actions to ensure the extensive demographic research 
paper is also inserted into the website. I am pleased that the 
Commission was identified as a contributing factor in the introduction 
of this important and timely legislation. I am encouraged that the 
establishment of the Interagency Council on Meeting the Housing and 
Service Needs of Seniors will provide a means to address and implement 
its comprehensive list of recommendations.
    My final comment would be to think like Nike of the private sector: 
``Just Do It! At EHDOC we have modified this phrase to: ``Feel It (in 
your heart), Think it (do your homework), and Do it (take timely 
actions). I would urge your quick passage of this bill to establish the 
Interagency Council on Meeting the Housing and Service Needs for 
Seniors; and urge your support to ensure its quick enactment during 
this 109th Congress. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      RESPONSE TO A WRITTEN QUESTION OF SENATOR STABENOW 
                     FROM ALPHONSO JACKSON

Q.1. In the LEGACY Act of the American Dream Downpayment Act of 
2003, what is the status of: The provision to create a 
demonstration program to train employees in the rights of 
intergenerational families in connection with the Section 202 
Supportive Housing for the Elderly program; the provision that 
Census study be done in relation to HUD Section 202 housing?

A.1. The LEGACY Act provisions of the American Dream 
Downpayment Act authorized the Department to carry out a 
demonstration program to provide assistance for 
intergenerational dwelling units for intergenerational families 
in connection with the Section 202 Supportive Housing for the 
Elderly program. The Act was signed into law on December 16, 
2003. However, the Consolidated Appropriations Act of 2004 
(Public Law 108-199, approved on January 23, 2004) did not 
provide an appropriated amount to carry out the demonstration 
units. The fiscal year 2005 appropriations bill again did not 
provide funds for this purpose. Although funds are not yet 
available to carry out the demonstration, the Act also included 
a provision that directed the Department and the Bureau of the 
Census to conduct a study to determine an estimate of the 
number of grandparent-headed and relative-headed families in 
the United States and their affordable housing needs. The study 
is expected to be completed this summer.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
